<html>
<title> - [H.A.S.C. No. 110-175] DEPARTMENT OF DEFENSE'S WORK WITH STATES, UNIVERSITIES, AND STUDENTS TO TRANSFORM THE NATION'S FOREIGN LANGUAGE CAPACITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                         [H.A.S.C. No. 110-175]

DEPARTMENT OF DEFENSE'S WORK WITH STATES, UNIVERSITIES, AND STUDENTS TO 
            TRANSFORM THE NATION'S FOREIGN LANGUAGE CAPACITY

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 23, 2008

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                               ___________
                                     

                        U.S. GOVERNMENT PRINTING OFFICE
45-828                        WASHINGTON: 2008
______________________________________________________________________  
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001
                                     




               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                 John Kruse, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                    Sasha Rogers, Research Assistant
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Tuesday, September 23, 2008, Department of Defense's Work with 
  States, Universities, and Students to Transform the Nation's 
  Foreign Language Capacity......................................     1

Appendix:

Tuesday, September 23, 2008......................................    31
                              ----------                              

                      TUESDAY, SEPTEMBER 23, 2008
DEPARTMENT OF DEFENSE'S WORK WITH STATES, UNIVERSITIES, AND STUDENTS TO 
            TRANSFORM THE NATION'S FOREIGN LANGUAGE CAPACITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............    25
Miller, Hon. George, a Representative from California, Chairman, 
  Committee on Education and Labor...............................     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Bourgerie, Dr. Dana S., Associate Professor of Chinese, Director, 
  The National Chinese Flagship Center, Brigham Young University.     8
Givens, Dr. Terri E., Frank C. Erwin, Jr., Centennial Honors 
  Professor, Vice Provost, University of Texas, Austin...........     6
Slater, Dr. Robert O., Director, National Security Education 
  Program, Department of Defense.................................     4
Walker, Dr. Galal, Professor of Chinese, Director, National East 
  Asian Languages Resource Center and Chinese Flagship Center, 
  Ohio State University..........................................    10

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    37
    Bourgerie, Dr. Dana S........................................    96
    Givens, Dr. Terri E..........................................    62
    Slater, Dr. Robert O.........................................    39
    Snyder, Hon. Vic.............................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................   117
DEPARTMENT OF DEFENSE'S WORK WITH STATES, UNIVERSITIES, AND STUDENTS TO 
            TRANSFORM THE NATION'S FOREIGN LANGUAGE CAPACITY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                       Washington, DC, Tuesday, September 23, 2008.
    The subcommittee met, pursuant to call, at 10:07 a.m. in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. We will go ahead and get started. My Ranking 
Member Mr. Akin said that he wanted us to go ahead and get 
started, that the Republicans are caucusing and thinks he will 
be a little bit later, but he should be joining us shortly.
    Good morning. Welcome to the Subcommittee on Oversight and 
Investigations hearings on the goals and directions of the 
Department of Defense's (DOD) efforts to improve its language 
and cultural awareness capabilities. Today's session is the 
third in a series of hearings that were examining efforts to 
improve the foreign language, cultural awareness and regional 
expertise capabilities of the United States general purpose 
military forces. Witnesses at both the previous hearings noted 
that the U.S. population is generally marked by a lack of 
foreign language skills, a notable exception being those skills 
found in recent immigrant communities.
    So where does that put us? Well, it puts us in a situation 
where the Department of Defense and the American people and the 
folks who care about our national security know--we certainly 
learned this last decade--that we need foreign language skills 
and cultural awareness to achieve our national security 
objectives, and we expect the DOD to be able to meet those 
needs. However, they have inherited a national problem, and you 
all as well, better than anyone else, knows that we Americans 
are not very good at foreign languages. And so we expect the 
DOD to meet these foreign language needs, and yet, starting at 
early ages, most Americans don't venture into the kinds of 
languages that it turns out that we may need for our national 
security purposes.
    So we are asking DOD to solve this problem for us, when, in 
fact, it is a national problem. And as you all are going to 
testify today, we actually now have Department of Defense 
dollars going in some states for K-12 education programs 
because the DOD has recognized that these problems may only be 
solved by starting at very, very young ages. The key programs 
we will be discussing today include DOD's National Security 
Education Program, or NSEP; the Interagency National Security 
Language Initiative, NSLI; the National Language Service Corps 
(NLSC); the Flagship Program; and the State Language Education 
Roadmaps or Strategies.
    We are joined today by four great witnesses: Dr. Robert 
Slater, who joined the National Security Education Program in 
1992 and has served as its director since 1996. Dr. Slater had 
a key role in the language of both the Language Flagship and 
the National Language Service Corps. As a director of NSEP, he 
also serves on the National Security Education Board.
    Dr. Terri Givens is the Frank C. Erwin, Jr., Centennial 
Honors Professor and vice provost at the University of Texas at 
Austin (UT). Texas-Austin is one of three Arabic Flagship 
Centers, and it is also the sole Hindi/Urdu Flagship Center.
    Dr. Dana Bourgerie--did I say that, Dr. Bourgerie, 
correctly--is an associate professor of Chinese and the 
director of the Chinese Flagship Center at Brigham Young 
University (BYU). His research interests include dialect 
studies, and he has published an article on computer-aided 
learning for Chinese.
    Dr. Galal Walker is professor of Chinese and Director of 
the National East Asian Languages Resource Center and Chinese 
Flagship Center at Ohio State University (OSU). Ohio State 
University, along with Brigham Young University, is one of four 
Chinese Flagship Centers.
    Welcome to all of you here today. We appreciate your 
presence. When Mr. Akin comes, we will give him a chance to 
make an opening statement.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 35.]
    Dr. Snyder. But I am also very, very pleased today that we 
are joined by Congressman George Miller from California, who is 
the Chairman of the Education and Labor Committee, and Rush 
Holt, who is a member of that committee, to participate. And 
Chairman Miller will have to leave shortly, but Dr. Holt is 
going to be staying with us for a while. But I really 
appreciate their attendance because both these men understand 
that this is a national--a national problem, not just a DOD 
problem. And I want to recognize Chairman Miller for any 
comments he would like to make.

    STATEMENT OF HON. GEORGE MILLER, A REPRESENTATIVE FROM 
     CALIFORNIA, CHAIRMAN, COMMITTEE ON EDUCATION AND LABOR

    Mr. Miller of California. Well, thank you very much. And 
thank you for having this hearing and inviting our 
participation from the Education and Labor Committee. We have 
tried since I have become Chair of the committee to work with 
other committees and sort of forget the jurisdictional lines 
and see if there is things that we can do to complement one 
another. And clearly the witnesses you have before us today can 
tell us a lot about the opportunities for young people to learn 
languages, and to become proficient in those languages and 
perhaps even develop careers using those foreign languages.
    I am not sure that many young people understand that 
possibility. Foreign language study seems more like a burden 
than an opportunity. And I think just as sometimes we think 
about developing career ladders in so many other fields, we 
have to show them that there is a career ladder that is 
available here, and one that is probably getting better and 
more attractive all of the time with the globalization of the 
world and our economy.
    Obviously we believe this is very important on the 
committee. During this Congress we have tried to put some 
emphasis on this under the leadership of Representative Rush 
Holt. We have supported investments in this area, including the 
Foreign Language Assistance Program, which provides grants to 
establish and improve and expand innovative foreign language 
programs in the K-12 students, and also developing, again under 
his leadership, the idea that we would have international 
education that focuses on foreign languages and area studies 
with respect to diplomacy and national security and trade 
competitiveness, that we would put an emphasis on that in the 
Higher Education Act that was just passed. We would also put an 
emphasis on foreign languages with respect to understanding 
science and technology. And again, that was in the Higher 
Education Act. Under Mr. Holt's leadership, those were 
successful programs with bipartisan support, and also his 
initiative to create a new Deputy Assistant Secretary for 
International Education within the Department. I think it 
starts to show the kind of shift that we are doing.
    But we also know there is a great deal to learn from the 
Department of Defense and from other agencies of the government 
that not only put a value on foreign language, but essentially 
need the skills and the talents of these individuals. And we 
hope to be able to work with you when we do No Child Left 
Behind, the reauthorization of that act next year, because 
again, we are getting an awful lot of people coming to us and 
telling us this is a very important place to reemphasize 
foreign language studies and competencies, and that will also 
be done under the leadership of Rush Holt, who has really, 
really done remarkable work on our committee to bring a sense 
of urgency and importance to this matter as we have gone 
through the reauthorizations as he did with higher ed. And we 
look forward to that in No Child Left Behind.
    Thank you again for including us.
    Dr. Snyder. Thank you, Mr. Chairman, for being here, and we 
appreciate your comments.
    Before we begin your opening statements, the staff and 
folks who have been here before are very familiar with these 
two anecdotes that I am going to share because we showed the 
tapes at the first hearing, but it is the contrasting between 
Senator Inouye's World War II experience in Germany with a man 
named Guy Gabaldon, who was in the Pacific theater. And I 
talked to Senator Inouye about this, and it was in the Ken 
Burns World War II story. But he came upon a wounded German, 
and they were trying to communicate with each other, and he 
said neither one of them spoke each other's language. And at 
some point this wounded German reached in his coat, and Senator 
Inouye killed him with the butt of his rifle, and as he hit 
him, the man's hands flew with a photograph of his family. He 
was reaching in his coat to bring out pictures of his family. 
And Senator Inouye in this Ken Burns film talks about how he 
had to go get counseling for that because here was this man who 
was just trying to share with him his family, but he didn't 
share the German language.
    Guy Gabaldon was recruited by the Marines in the early 
1940's because he spoke some Japanese. He had picked it up from 
Japanese friends as a teenager in the neighborhood he was in, 
and he ended up in one of the islands. And, of course, we all 
have this illusion that the Japanese would never surrender, but 
because of his Japanese language skill he learned as a kid in 
the streets and the orchards where they were doing work, he got 
over 1,500 Japanese soldiers to surrender, and he did it on his 
own. He would go to the mouths of caves, holler at them in 
Japanese, they would come out and surrender, and he would--in 
one night--he did this mostly at night--he stumbled into a 
regimental headquarters and got 800 Japanese soldiers to 
surrender at one time. So that is 1,500 Japanese that are still 
alive. But think of the numbers of Americans who would have 
died if that had gone the way everything else had gone on those 
islands that were held by the Japanese.
    So these are very real issues, and the needs are different 
now of our military, but when we talk about the role of foreign 
language in our military forces, if you are the person that is 
doing street patrols, this is not some academic exercise. These 
can be the kinds of misunderstandings that can lead to people 
getting killed.
    So I appreciate you all being here today. Dr. Slater, we 
will begin with you.
    Oh, Rush, would you like to--I will be glad to recognize 
you, Rush, for any comments you would like to make. Rush Holt.
    Dr. Holt. No, thank you. I appreciate Chairman Miller's 
remarks, and I will join in the discussion with the witnesses. 
Thank you.
    Dr. Snyder. Dr. Slater, we will begin with you. What we 
will do is we will put on this clock, and it will go green and 
then yellow, and then it turns red at the end of five minutes. 
But we want you to share with us any thoughts that you have.
    All four of you gave fairly lengthy written statements. If 
you were to actually read those word for word, we will be here 
until Friday. But I know that you intend--we appreciate the 
fact--I have read them, and the staff has read them, and we 
appreciate your thoroughness. They are very helpful, But 
obviously you are not going to do that today. But if you have 
other things you need to tell us after the red light goes on, 
feel free to share those with us. But I know Members will have 
questions.
    Dr. Slater, we will begin with you.

STATEMENT OF DR. ROBERT O. SLATER, DIRECTOR, NATIONAL SECURITY 
            EDUCATION PROGRAM, DEPARTMENT OF DEFENSE

    Dr. Slater. Good morning, Mr. Chairman, members of the 
distinguished committee, Congressman Holt, Congressman Miller. 
Thanks for the opportunity to speak with you today.
    The National Security Education Program represents a 
critical piece of the puzzle in how we address our longstanding 
national deficit in languages and cultures critical not only to 
our national security, but to our broader national well-being. 
Since 1994, NSEP, has engaged in the national effort to expand 
opportunities for Americans to develop proficiencies in 
critical languages and to ensure that the federal sector has 
access to this extraordinary talent. More than 1,200 NSEP award 
recipients have and continue to serve in positions related to 
U.S. National security throughout the federal sector. In fact, 
just a few minutes from here up the street, we have about 125 
of our former scholars and fellows meeting with 35 
representatives of 35 federal agencies to talk about jobs in 
the Federal Government all morning.
    As Director of NSEP almost since its inception in 1992, I 
feel compelled to note that the DOD leadership's very ambitious 
goals of the defense language transformation plan have been 
enormously successful in expanding NSEP's capacity to influence 
the educational process not only in U.S. higher education, but 
also in K-12. My testimony focuses on three of six major NSEP 
efforts: Language Flagships, State Language Roadmaps, and the 
National Language Service Corps. Each of these represents an 
important shift in paradigm as we endeavor to make available to 
the Nation a new generation of globally proficient 
professionals.
    Just a few words about the Language Flagship. Just a few 
years ago, we started an experimental grant program with four 
universities. Today we have expanded to 20, accompanied by 3 K-
12 national models and 8 overseas emergent programs involved in 
what is the first systematic national effort to develop and 
implement higher education infrastructures whose objective is 
to graduate university students at what we call the superior 
professional or level 3 level of proficiency in critical 
languages.
    Flagship represents the most ambitious and aggressive 
effort to date to transform language education in the U.S., and 
we are committed to a goal of at least 2,000 enrolled students 
by the end of the decade. In fact, the results we are seeing 
today are quite remarkable. We are receiving the results of 
formal proficiency testing right now of a group of recent 
Flagship fellows. Remarkably, these fellows are testing at 
levels we ordinarily don't see; not only at the superior level 
three, but at level four. We expect in the coming years an 
expanded array of Flagship institutions across the Nation will 
be producing undergraduate students who routinely graduate at 
this level and beyond.
    Flagship is an important part of a broader effort to 
transform U.S. education. We are building our higher education 
models on the shoulders of simply what must become a more 
robust K-12 language education system through the U.S. To that 
end, DOD, through Flagship and as a partner in the National 
Security Language Initiative, agreed to sponsor three national 
models of articulated K-16 instruction. Our hope is that a 
vital expanded K-12 effort proposed for the Department of 
Education will receive funding from Congress in the future.
    The second program to mention briefly is the concept of 
state roadmaps for language. DOD tasked NSEP to sponsor a 
series of state strategic planning efforts that would 
systematically explore the demand for language skills within 
each state and develop a roadmap to address these needs. We 
identified the three states: Ohio, Oregon and Texas. You will 
hear more about them later from my colleagues.
    With this funding, an initiative began in June 2007, 
followed by a series of state-level working groups. The 
projects moved to their next level with the publication last 
October of three language roadmaps. Each state is now engaged 
in efforts to implement key components of that strategy.
    The third program mentioned briefly is the pilot National 
Language Service Corps. When we consider the critical issue of 
surge capacity in the federal sector, DOD included, we see the 
language corps as an integral part of that solution. Simply 
stated, the Department of Defense, as well as the entire 
Federal Government, cannot reasonably expect it to ever possess 
the wide range of language capabilities that may be necessary 
to address immediate or emergency surge requirements. The NLSC 
is designed to address this need by providing and maintaining a 
readily available civilian corps of certified expertise in 
languages. The corps will maintain a roster of individuals, 
American citizens, with certified language skills who are 
readily available in time of war or national emergency or other 
national needs.
    We are poised at this point to move ahead with active 
recruitment of members and planned operational exercises with 
our partners in the Centers For Disease Control, the U.S. 
Pacific Command and the Defense Intelligence Agency.
    I look forward to answering any other questions you may 
have on those three programs or anything else that we are 
undertaking as part of the National Security Education Program.
    Dr. Snyder. Thank you, Dr. Slater.
    [The prepared statement of Dr. Slater can be found in the 
Appendix on page 39.]
    Dr. Snyder. Dr. Givens.

    STATEMENT OF DR. TERRI E. GIVENS, FRANK C. ERWIN, JR., 
CENTENNIAL HONORS PROFESSOR, VICE PROVOST, UNIVERSITY OF TEXAS, 
                             AUSTIN

    Dr. Givens. Mr. Chairman and members of this distinguished 
committee, greetings from the great state of Texas. And on 
behalf of the administration at the University of Texas (UT) at 
Austin, thank you for the opportunity to speak with you today.
    The University of Texas at Austin is one of the leaders in 
education abroad and language education in the United States. 
We are currently ranked third among doctoral research 
institutions, with 2,244 students studying abroad, And we teach 
a broad range of languages and area studies at our university, 
many of them top-ranked programs. I will focus my remarks today 
on our Flagship programs and the Texas Language Roadmap.
    The University of Texas at Austin has received funding for 
two language Flagship programs from the National Security 
Education Program. The Hindi/Urdu Flagship (HUF) currently has 
15 students, and the Arabic Flagship has had 39 students. This 
program is an important source of funding for our brightest 
students who have an interest in intensive language study. The 
Hindi/Urdu Flagship at UT is the sole language Flagship program 
dedicated to this pair of languages.
    Building on a long history of teaching South Asian 
languages and cultures at UT, HUF is responding to a newly 
perceived national need to change the paradigm of language 
learning in the U.S. by developing new pedagogical approaches, 
a new type of curriculum and a new focus on the Flagship goal 
of producing global professionals, graduates whose linguistic 
skills will make them highly effective in a range of 
professional capacities.
    The Arabic Flagship program at UT provides training in 
Arabic language and culture at the undergraduate level. The 
program is unique in several ways. The first is that our 
program is embedded within the department of Middle Eastern 
studies, enabling us to offer a very wide range of Arabic 
language and content courses. UT Austin has the largest Arabic 
faculty in the country.
    A second factor that makes our program unique is that the 
majority of our students are nonheritage students. This means 
that we are able to target and recruit students based on 
academic talent, language aptitude and commitment.
    Another key difference is that students have the 
opportunity to take content courses in a wide range of 
subjects, and these are all taught in Arabic.
    The Flagship mission is not just to create a small pool of 
well-trained students, but instead to change the face of 
language teaching across the country. We are taking the lead in 
a wide range of projects to provide leadership to the Arabic 
teaching community. This year we will be focusing on K-12 
outreach, testing and assessment, and upgrading our website to 
become a valuable resource for learners of Arabic.
    A final goal of our program that we have had great success 
with is the creation of the next generation of Arabic language 
teachers. We have recruited many of the top graduate students 
in the country, who provide classroom assistance, work on 
research projects and take our program forward.
    In February 2007, the University of Texas at Austin was 
selected as one of three institutions around the country to 
participate in the federally funded U.S. Language Summits 
project. The first phase of this project culminated in a 
language summit at UT in October of 2007 in the development of 
a language roadmap.
    In the spring of 2008, I was asked to continue the project 
in order to develop an advisory board that would work with the 
state of Texas to develop the ideas outlined in the language 
summit. We currently have five high-profile members of the 
advisory board, and we are currently working with the Austin 
Chamber of Commerce to develop ties to the business community. 
The main focus of the initiative will be to develop and fund 
pilot language projects in elementary schools working toward 
legislation that would increase requirements for language 
training for K-12 and provide broader funding for K-12 language 
initiatives.
    Another highly recognized program at UT, the UTeach 
Program, which is an innovative program to develop high school 
teachers as teacher certification for the following languages 
in the state of Texas: Arabic, Chinese, French, German, 
Japanese, Latin, Russian, Spanish. And the most popular of 
these are Spanish, followed by French and Japanese.
    Looking toward the future, the University of Texas at 
Austin is pleased with the progress we have made thus far to 
support our students and faculty in language study and 
providing opportunities for study abroad; however, we cannot be 
complacent, and we must continually strive to find ways to keep 
pace with the needs of our country into the future. This means 
that universities must pay attention and be involved in what is 
happening in K-12 education not only in Texas, but in efforts 
that are developing nationwide. If critical languages aren't 
being taught in high schools, there will be a shortage of 
students capable of entering the Flagship programs; therefore, 
programs like the Language Roadmap are crucial to providing 
opportunities for teachers who will then provide the students 
who will enter the Flagship programs.
    In a sense, universities working with business, government 
and education leaders can be a linchpin in ensuring that our 
country's needs for critical languages are met, but we must 
have the foresight to create the partnerships that will provide 
the funding for these programs into the future. As a 
university, we have been willing to put resources into these 
efforts, and we are pleased to work with the state and Congress 
on programs like the Language Flagships and Language Roadmap 
that will provide the business people, intelligence analysts, 
and teachers who are critical to our country's future. I 
strongly support Dr. Slater's hope that Congress will agree to 
fund an expanded effort led by the Department of Education to 
build a national network of K-12 programs in critical 
languages.
    Again, thank you for this opportunity, and I look forward 
to answering your question.
    Dr. Snyder. Thank you, Dr. Givens.
    [The prepared statement of Dr. Givens can be found in the 
Appendix on page 62.]
    Dr. Snyder. Dr. Bourgerie.

  STATEMENT OF DR. DANA S. BOURGERIE, ASSOCIATE PROFESSOR OF 
   CHINESE, DIRECTOR, THE NATIONAL CHINESE FLAGSHIP CENTER, 
                    BRIGHAM YOUNG UNIVERSITY

    Dr. Bourgerie. Thank you. Mr. Chairman, members of this 
distinguished committee, Chairman Miller, Congressman Holt, I 
am very happy to be here today and speak with you a little bit 
about the Brigham Young University (BYU) Flagship program, some 
of the things we are doing in the state of Utah. Our Flagship 
program was initiated in fall 2002 as one of the original four 
programs. We are now beginning our eighth year of operation and 
just accepted our seventh cohort this fall. BYU has a long 
history of strong English programs. Our undergraduate annual 
enrollments in Chinese are now over 1,600. Building on other 
strong existing Chinese programs, we have been able to infuse a 
level of innovation that did not exist before we had the 
Flagship program. The mission statement encompasses the goals 
and the aims of the program; that is, the Chinese Flagship 
program seeks to prepare students for careers related to China. 
The program's aim is to provide participants with the 
linguistic cultural skills necessary and cultural skills 
necessary to realize the professional goal within a Chinese 
environment.
    All this we do with mission in mind and each phase of the 
program is designed to take the student to the next level--to 
that professional level of proficiency, but it has several 
supporting objectives. Raising the general proficiency to 
advanced or superior or level 3/3+, increasing capabilities in 
specialized professional communication tasks, providing general 
and domain related cultural training. We also are the--we are 
the managing Flagship for managing an overseas program that I 
refer to more in my written testimony.
    After seven years and six cohorts, the program has begun to 
produce just the kind of students it was designed to train, as 
Dr. Slater has noted as well. Last year, standardized testing 
for Cohort five yielded seven superior ratings, that is the 3/
3+ range, five advanced ratings and most importantly, graduates 
are working a wide range of fields related to China, including 
12 in the U.S. Government positions, including State, various 
other agencies, Commerce and so on. I would like next to just 
talk a little bit about our K-12 partnership, because that was 
raised as well. As is the case throughout much of the country, 
Chinese enrollments have burgeoned in Utah in the last five 
years.
    Although still a small percentage of total foreign language 
enrollments, the number of students studying Chinese in Utah 
has grown substantially from 183 in 2003 to 1,215 in 2007, with 
a projected enrollment of 3,000 to 3,500 in 2008. In 2003, 
fewer than six high schools had Chinese programs in Utah. In 
2008, there will be 74 secondary school programs and there will 
be starting with the 2009/2010 year 10 dual language emerging 
schools for the K-12 level. These state-based incentives have 
allowed the BYU Flagship program to focus on curriculum 
development, assessment, support and teacher training on how 
to--and we have used recently allocated K-12 linkage funds from 
NSEP to respond to specific requests from the world languages 
unit in individual districts.
    The first of these is the K-12 is a distance program for 
teaching Chinese called enhanced Educational Network (EDNET). 
Now in the second year, the EDNET broadcasts on the Utah 
education network and serves 34 sections and 28 high schools. 
It is a blended distance model. That is where they have an 
interactive experience with a master teacher and then there are 
local facilitators who speak Chinese. Another important effort 
in the K-12 domain has been our Start Talking (STARTALK) 
program. For the last two years, our center has sponsored this 
DOD-funded program on a residential intensive language program 
for high school students. STARTALK plays two distinct roles in 
our K-12 strategy.
    First, it exposes more students to Chinese earlier and 
helps bolster high school enrollments. In addition, the program 
is a recruitment ground for flagship programs later on. In 
2008, our second year of the program, we expanded from our 2007 
numbers significantly to serve 60 high school students. 
Moreover, the teacher training component enrolled 18 secondary 
teachers and prospective teachers. This ongoing professional 
development workshop series helps address the critical need for 
qualified K-12 teachers in the state of Utah.
    Lastly, I just would like to mention just a little bit 
about our summit. We had the summit among our Flagship states 
just last week. In addition to this, recent specific 
collaborations with the state of Utah, the Department of 
Education as I just noted, we have the Flagship center with a 
core organizer of the Utah governor's language summit just last 
week on the 16th. The state took full charge of the summit 
collaborating with NSEP and drawing on their expertise from 
previous language summits. Governor Jon Huntsman gave his 
direct support to the effort as in previous language summits in 
Ohio, Texas and Oregon.
    The gathering brought together representatives from 
business, education, industry and government to begin a 
dialogue toward a language roadmap for the state of Utah. 
Speakers and participants, including the governor himself, Jon 
Huntsman, Dr. David Chu, some of the Senate leaders, also key 
participants, the head of the governor's economic development 
office and the head of the Utah world trade organization. The 
summit was the first step toward developing a language policy 
for the state of Utah. Smaller working groups currently being 
formed to draft a formal statement on language policy based on 
the outcome of the language summit is follow-up research. These 
results we brought forward as recommendations to the Utah 
international education summit to be held in January.
    The Flagship program at BYU and its partners across the 
country have clearly begun to effect deep change in the 
language field. Flagship programs are increasingly looked to 
for as role models or language pedagogy and its directors as 
national leaders. In my 20 years of language-teaching 
experience, this is probably the most far-reaching of anything 
that I have yet witnessed. I thank you for the opportunity to 
address this committee and I look forward to answering any 
questions you may have.
    Dr. Snyder. Thank you, Dr. Bourgerie.
    [The prepared statement of Dr. Bourgerie can be found in 
the Appendix on page 96.]
    Dr. Snyder. Dr. Walker.

STATEMENT OF DR. GALAL WALKER, PROFESSOR OF CHINESE, DIRECTOR, 
   NATIONAL EAST ASIAN LANGUAGES RESOURCE CENTER AND CHINESE 
             FLAGSHIP CENTER, OHIO STATE UNIVERSITY

    Dr. Walker. Chairman Snyder, Congressman Bartlett, 
Congressman Miller and Congressman Holt, as unaccustomed as I 
am to being brief, I am very pleased to speak with you on 
behalf of the Ohio State Chinese Flagship program. I hope my 
written statement and comments here reflect some of the 
excitement and resolve around the changes in the ways those of 
us in Ohio are thinking and acting about foreign language and 
culture training. I would also like to convey the important 
roles of the national security education program, the language 
Flagship, in driving these changes. The biggest impact of the 
Chinese Flagship program on Chinese language study in Ohio is 
the raised expectation. We have been able to demonstrate time 
and again that expecting excellence and then working to achieve 
it leads to demonstrable improvements in foreign language 
education.
    Five years ago, we did not have the capacity to provide our 
students with the sequences of study and training that 
consistently led to the advanced proficiencies in Chinese. We 
had a good number of students who would reach advanced levels, 
but those levels were largely reached after formal programs of 
study were completed and were hit and miss depending on the 
ability of the students to pursue a language study on their 
own. Now we have a consistent stream of young people who 
demonstrate advanced knowledge and skills not only by testing 
at Interagency Language Roundtable (ILR) Level three and above, 
but also by engaging in genuinely difficult tasks requiring 
sophisticated language abilities. This past week, Rue Burns, an 
undergraduate political science major, came to us from George 
Washington University, completed his master thesis on a new 
social class in China by defending it in a public forum 
attended by his teachers in Columbus and a panel of Chinese 
sociologists in Qingdao.
    In a video conference session that run over two hours, 
Burns presented his thesis, responded to criticism and 
discussed revision, earning a pass from his teachers and praise 
from the Chinese scholars who are clearly interested in what 
this young American had to say about their society. This kind 
of session is a regular event in the OSU Chinese Flagship 
program. When a predominantly nonheritage undergraduate and 
graduate students observe the high level of performance of 
students who are only a year or two ahead of them, they see 
what is expected of them and they are eager to rise to the 
challenge. The Chinese Flagship program is also raising the 
expectations of our university. If Chinese students can 
consistently reach advanced levels of proficiency, why not 
other languages? We are now discussing an institute of advanced 
language study where students of other languages will be 
challenged by the same expectation.
    By building the Chinese Flagship program into the degree 
structure of the university, we are confident that the changes 
we have implemented through the support of the NSEP will remain 
with the Chinese program and create a strong potential to 
spread to other languages. The support of national security 
education program has permitted us to create innovative 
approaches to training our students to the advance level. Among 
these are the integration of language study and content. During 
the OSU Chinese Flagship program, our students progressed from 
studying the language and culture to studying in the language 
and culture by means of course content that prepares them to 
intellectually engage Chinese counterparts through a program of 
mentors with domain knowledge that is focused on developing a 
research addenda, our students quickly become used to the idea 
that they are going to learn concept ideas and perspectives 
that they would not encounter if they did not have the language 
ability. From the beginning, we frame language instruction in 
Chinese culture in making sure that the students actually 
perceive the way Chinese present their intentions. Later, we 
expose them to Chinese commonsense so that they know it when 
they see it later on.
    From the culture, we engage them in community, a large part 
that we deal with in our center in Qingdao, which I mention in 
the written statement and which you might talk about later on. 
We are now in the process of expanding the number of 
undergraduates in our Chinese Flagship program. And the state 
of Ohio has recently made anyone eligible for G.I. Benefits 
eligible for in-state tuition rates. We hope that we are going 
to attract graduates who have left the service, graduates of 
the Defense Language Institute and other such backgrounds.
    I am going to talk in the last 40 seconds about the 
roadmap. We had a meeting on June 28, 2007 of about 85 citizens 
of Ohio who got together and discussed in kind of a fast-paced 
daylong meeting the issues of--the needs and resources for 
languages in Ohio. This resulted eventually in the production 
of the roadmap team, which was produced by citizens from that 
group, mostly dominated by business and government--people from 
business and government. We are continuing with that, these 
roadmaps--these design teams are meeting and just recently we 
had meetings of 12 of 13 public universities in Ohio to meet 
about implementing these findings of the roadmap. We have 
learned a lot from our friends in business and government and 
public service. Language and culture skills are equally 
important. Language must be combined with work related 
knowledge.
    And access to language instruction must be broadened and 
the delivery of the instructions made relevant to the 
workplace. We also learned that there is a valuable reserve of 
people in our community who have substantial experience and 
knowledge of foreign languages and cultures and they are 
willing to share that with their fellow citizens. This is my 
favorite takeaway from the language summit and roadmap 
activities in Ohio. Thank you for the opportunity and I will be 
happy to answer any questions.
    [The prepared statement of Dr. Walker is retained in the 
committee files and can be viewed upon request.]
    Dr. Snyder. Thank you all for your testimony. What we will 
do is we try to follow our five minute clock here pretty 
strictly for us. So I will take five minutes and then go to Mr. 
Bartlett and then without objection we will let Chairman Miller 
and Dr. Holt participate. Dr. Slater, I want to spend my first 
five minutes here and have you do a thumbnail tutorial for all 
of us who are hearing about some of this for the first time and 
are watching on the television. I want to talk about the 
Flagship centers and the language roadmap. And then on the 
language roadmap, when we have two of the three states here 
that were funded with DOD money--Utah was not, but Texas, 
Ohio--and Oregon is the third language roadmap state. Now, give 
me the one-minute summary of that. Was that predominantly DOD 
money that went to fund that program? Describe that for us, 
please.
    Dr. Slater. Yes. It was all one-year money that was made 
available from Congress to the Department of Defense, which, in 
turn, asked National Security Education Program to develop an 
effort to look at the issue of working with the states. 
Primarily we believe that if we are going to change the 
language education system in the United States, we really need 
to build it at the local and state level. That is where change 
occurs in education.
    Dr. Snyder. So essentially they all came together--was it 
Dr. Walker that--in describing the summit, that you essentially 
funded a summit in which they discussed what they need in their 
state for language needs?
    Dr. Slater. We funded each of the Flagship centers at UT 
Austin, at Ohio State, University of Oregon to take the 
leadership role in building first the process, which convened a 
summit. Now, the interesting part about the summit as an 
educator I can say this, is we challenged them to bring in the 
demand side. Educators don't always listen so well. So we asked 
them to sit in the back and listen to the demand side, talk 
about what the needs are in the state for language across the 
state for socioeconomic reasons, for boosting the economy. From 
that summit, they each formed a set of working groups that took 
the lessons learned from the summit and built an actual 
strategic plan that we called a roadmap over the next six 
months, released that roadmap and now each state is working at 
their own pace and at their own meaningful level for that state 
on various pieces of that strategic plan to try to adopt it.
    Dr. Snyder. Has the original DOD money played out in those 
three states?
    Dr. Slater. The original funding has. Through the Flagship 
centers, we provided them with a little additional funding to 
maintain some momentum. But at this point, most of the federal 
funding has been completed.
    Dr. Snyder. One final question on that and then I want to 
go to the Flagship centers. It is my understanding that there 
are other states--Utah apparently is an example--that think it 
is such a hot idea, they are doing it without federal dollars, 
they are trying to do it on their own. Do you think it would 
help the cause if the Congress were to find a way to fund 
additional language roadmaps with that one-time money?
    Dr. Slater. We would like actually to see 51 of them, 
including the District of Columbia. That would be a major 
advance, yes.
    Dr. Snyder. Yeah. And then I want to ask about the Flagship 
centers. And I think in your written statement you talk about 
the growing number and you project have a lot more. That is not 
entirely DOD money there, correct? And would you describe the 
funding for that? And then how does one become a Flagship 
center?
    Dr. Slater. What we talk about actually--what I talk about 
actually in my statement is the number we would project through 
DOD funding. Because what we see in the long run----
    Dr. Snyder. All the federal dollars are DOD for those 
Flagship centers, is that what you are saying?
    Dr. Slater. Excuse me?
    Dr. Snyder. All the federal dollars of that projection for 
Flagship centers is DOD dollars, no Department of Education?
    Dr. Slater. That is correct. We hope that other 
universities and expect other universities to begin to build 
Flagship-type programs that are independent of our funding. And 
we are seeing some interest in that happening now. But what we 
talk about in my testimony and report is the response that we 
are working on directly with DOD funding.
    Dr. Snyder. And if I am a college in central Arkansas, how 
do I become a Flagship center?
    Dr. Slater. We actually have an annual request for 
proposals that we call diffusion of innovation, which invites 
universities to partner with one of our Flagship centers. And 
we will help them and fund them to develop the curriculum that 
would implement that. We added four universities this year. 
That is the main vehicle we intend to use to add new 
universities to that. So a university in that case, we would 
ask them--we would connect them to a Flagship center. They 
would work together and develop a curriculum at that level.
    Dr. Snyder. And that is ongoing funding, DOD funding; is 
that correct?
    Dr. Slater. Correct.
    Dr. Snyder. That is good. Mr. Bartlett for five minutes.
    Mr. Bartlett. Thank you very much and thank you for holding 
this series of hearings. I am enormously supportive of our 
military focusing more on languages and culture. And I think 
that we have great difficulty in communicating with these other 
peoples because we do not understand their culture, we cannot 
speak their language. Seventy percent of all communication is 
said to be nonverbal. If all you know about the language is 
what you have learned in a textbook, you have already lost 70 
percent of all the communication when you talk to these people. 
And I think that our military ought to be spending more effort 
on this. And if we did, I think we might have less needs for 
guns and ammunition because this understanding each other, I 
think we might have less wars in the future.
    I am very envious of those who speak another language. I 
see little three-year-olds that are fluent in two languages and 
I worked really hard to try and learn a second language quite 
unsuccessfully through high school and college. I am told that 
when a child is three years old, they know half of all the 
things they will ever know. If you think about what a three-
year-old knows, that is not too hard to understand, is it? You 
know, we work really hard to try to get our people proficient 
in a foreign language when we wait to start till college. If 
you wait to start until high school, it--and I am glad that the 
chairman of our education committee is here. If we are really 
going to be successful in this, we have got to immerse them in 
this foreign language from birth up. It is just so easy when 
you do that. We teach English when you are in school. We are 
not learning the English language when we teach English. We are 
learning about the language and its structure and so forth.
    How do we start this cycle? Our magnificent arrogance has 
in the past kept us from focusing on foreign languages. When I 
went to college, one of my fellow students there was from Iran. 
That wasn't a bad name then. And she spoke 14 languages. She 
said after the first half dozen, it was pretty easy because of 
all the similarities in the languages. How do we immerse our 
kids in these foreign languages from the very beginning? I see 
these little three-year-olds, they don't know a noun from an 
object or anything else, but they speak the languages. How do 
we start this cycle? Once it is started and the parents speak a 
second language, they will if they are patriotic Americans 
immerse their kids in a second language because the world has 
really shrunk and we need to know these other languages. But 
how do we start it? If we wait until kindergarten, it is too 
late. They are already about twice the age when they know half 
the things they will ever know. How do we start early?
    Dr. Walker. We do some of that. To answer your question 
directly, what we are trying to do--we are developing a 
curriculum for K-12 or pre-K. We haven't gotten down to age 
three yet. But the idea is to build a curriculum where 
basically essentially where the children learn to play in 
another language. You teach them how to exist and how to 
manipulate their way through an environment, maybe just a 
classroom. And they learn to play, they learn to relate to 
other kids and their teachers in the language and just maintain 
that over a period of time. The important thing about language 
training at the early age is sustaining it all the way through. 
Very often we have language programs that start out very well 
and children will develop a capacity in the language and then 
they will find out that they can't continue that in the middle 
school or in the high school. And that to me is a huge waste of 
a resource. But, Congressman Bartlett, I think you hit on a 
very important thing. When we have these little children and 
they are in a situation where they can learn a language, a 
second language, it really is, it truly is a national resource 
and it is a resource that has a timeline on it. We won't be 
able--we won't be able to teach them the same way and to the 
same degree of competence later on in their life.
    Mr. Bartlett. Why can't we start in the crib with 
interactive television?
    Dr. Slater. Well, interesting comment. And this is an area 
that we really do need to explore more and pique the 
entrepreneurial spirit of the American pre-K system, which is 
generally private and not public. At our Oregon language 
summit, we had a lengthy conversation with a proprietor of a 
large national chain of pre-K programs. Language sells at that 
level.
    So we need to figure out a way to develop more programs 
that attract kids at the pre-K level. Now, the key, as Galal 
mentioned that I want to add, is that what we do very poorly is 
take what we build on and make sure that the children continue 
their progression. And I often say it is like--the way we treat 
languages in K-12 is like offering a child a math curriculum in 
elementary school and when they get to middle school, say we 
are sorry, we have nothing to offer you, all we can do is 
duplicate what you did in first through sixth, wait until you 
get to high school and then maybe we will build on it. That is 
what we do.
    So if you are going to invest in the pre-K, you have to 
have a system in place that then takes advantage of that 
ability and builds on it throughout the remaining 12 or 13 
years of school life or it is a wasted investment.
    Dr. Snyder. Mr. Miller for five minutes.
    Mr. Miller of California. Thank you. I am going to pick up 
there, Dr. Slater, if I might. Two things that always worried 
me in my years of education is sustainability and replication. 
And usually along the way between those two issues you lose 
quality rather rapidly. And my question is--and this is just 
out of ignorance of the program--you just described what we do 
in mathematics, which is a horror show, because we either 
repeat over and over things that are very disjointed when we 
see how they are presented here. You have a lot of discussion 
here in each of your presentations about the professional 
development of teachers. And it seems to me that success in 
teaching language sort of like success in teaching math, the 
depth of knowledge and comfort of the teacher has a lot to do 
with the ability to find acceptance among the students because 
you are able to differentiate your instructions, your 
guidances, your suggestions and the rest of that. If you are 
just barely ahead of your students, there is not much you can 
do to help them when you are in trouble.
    So I would just like to know what you--and you have a 
number of programs here both directed at teachers and in the 
classroom. And I would like to know just how you maintain this 
quality, sustainability and replication.
    Dr. Slater. And I might let my colleagues share some 
thoughts on the teacher education issue. Flagship generally is 
not engaged directly in teacher development, although I would 
add that we spend a lot of time in the Flagship program making 
sure that everybody who is teaching in it is an expert in how 
to teach languages. This is a real--but you put your finger on 
exactly the primary issue for the American education system, 
which as you know much better than I do, extends way beyond 
just teaching language. It is teaching all the fields. How we 
effectively develop a core of teachers across the United States 
who are effective in actually teaching language is a critical 
challenge.
    We don't have that problem in Flagship because each 
university is investing. When we enter an arrangement with a 
university, we insist that they designate old time tenure track 
lines in the languages to the program we are funding.
    So they are committed to that. But I think you might want 
to hear from the other universities in how they are looking at 
the teacher training issue, which is really the one that 
worries us. If you are asking me what keeps me up at night, it 
is where we are going to find all these teachers to----
    Mr. Miller of California. You mentioned in Utah you went 
from 5 to 74 schools. That is an applause line, except I don't 
know the quality of the teachers in the other 69 schools.
    Dr. Bourgerie. Right, right. I mean, that is a good point 
and I think it deserves a little bit of explanation. Now, that 
is an array of a variety of programs that includes our distance 
program, which reaches out to, I think, 24 schools. And that is 
one of the ways we can do it. We brought in a small number of 
visiting teachers from the national--the Hanban teacher. We 
don't see that as a long-term solution but as a short-term with 
other trained teachers. And we actually were involved in 
training them to work in a U.S. context because they weren't 
used to that.
    And then we have our EDNET teachers. And we draw from 
those--we have been developing these apprentice teachers for 
the last several years through this program. So it is really a 
multifaceted approach. But I want to say too, that it is a 
serious problem. Because it is not just finding enough, it is 
finding ones that really get it and are committed to the sort 
of instruction we have been talking about here. That true in 
all languages, but especially true in some of these critical 
languages that we deal with.
    Dr. Givens. You may have heard of our UTeach program. There 
has been a large emphasis on the math and sciences of course. 
But we are spreading that out.
    Mr. Miller of California. You had them at a hearing 
actually.
    Dr. Givens. And we have actually spread that to the 
languages because we recognize that there is such a strong need 
for language teachers, particularly in the critical languages. 
So we are trying to expand that model. It is also going into 
engineering. In general at the university, we see teacher 
training as one of the critical components of our mission. And 
so the UTeach program--unfortunately the language aspect 
doesn't have nearly as much funding as the math and science and 
we are hoping to be able to increase that. But the other side 
of the equation is that, for example, they have chosen not to 
train any teachers in Russian because there aren't any 
placements for them. And so that is why I think the roadmap is 
important, because we need to find the ways to actually create 
the placements for the teachers in the critical languages. So 
it is really very much connected and we need to focus on all 
the different aspects.
    Mr. Miller of California. Just one quick question. Are the 
graduate students, are they given a stipend? Are they given a 
scholarship? Are they identified as we do in math and science--
through the National Science Foundation, people are given 
stipends to get through the program?
    Dr. Givens. Some are, yeah.
    Dr. Bourgerie. All of ours get at least some funding.
    Mr. Miller of California. Thank you.
    Dr. Snyder. Thank you. Dr. Holt for five minutes.
    Dr. Holt. Thank you, Mr. Chairman. And thank you for 
allowing me to join you today. Let me first ask about the 
ground rules. Are we likely to have another round of 
questioning?
    Dr. Snyder. Yes.
    Dr. Holt. Good. Anyway, thank you for doing this. And, Dr. 
Slater, Givens, Bourgerie and Walker, thanks for very good 
testimony. The Chair began with some anecdotes about why it is 
needed. I got heavily involved in this, well, earlier this 
decade when I was sitting in the Intelligence Committee 
listening to some special forces types who were saying that 
they were combing the hills looking for Osama bin Laden. And I 
said when you talk with the local people, you know, what do you 
learn. And they said actually we are limited there. We picked 
up some since we have been out there. And it really drove home 
the national security need here.
    Certainly it is easy to imagine interrogation nuances 
missed and insurgencies not quelled and lives lost. Looking at 
it more positively, we are making progress and we by investing 
in this, it seems we are not only enhancing national security, 
but we are really enriching our society. Something that has 
become apparent is veterans are facing higher levels of 
unemployment than the cohort that hasn't served their country 
in uniform, which is not only a disgrace, but sort of hard to 
believe.
    And there was a news item on the radio this morning. Well, 
okay, so what good does machine gunner training do you in the 
job market and all of the various people trained in high tech 
warfare? Well, certainly the more people who come out of the 
service with fluency and competency in languages, the more 
useful they will be and more successful they will be in the 
marketplace. I am pleased to see the good progress. I mean, I 
followed the David Boren undergraduate and graduate fellowships 
and the Flagship programs and the heritage speaking programs. I 
have visited STARTALK programs. And the statistics about the 
growth of these programs are impressive and the raised 
expectations are so encouraging.
    We see it in school boards and among school principals and 
elsewhere. So I think we are on the right track, but there is 
just so much more to do.
    Let me turn to a few questions, if I may. Dr. Slater, say a 
little more about the statistics of what happens to the NSEP 
graduates and over the long-term, where do you think they will 
end up?
    Dr. Slater. As you know, every individual who is funded by 
our program incurs a unique requirement that they seek--must 
make a good faith effort to seek work in a national security-
related position in the Federal Government. That is a 
requirement. We don't promise them a job. But they have certain 
advantages in terms of special hiring authorities and we have 
staff that actually assists them in finding jobs. We keep--
because it is a requirement, we obviously keep careful 
statistics on them. The key, I think, that I always point out 
to people is the selection process is first based on motivation 
to want to work for the Federal Government. So we already have 
a cohort that comes in, perhaps with too high an expectation 
that they are going to go right from the end of the program or 
graduation to ambassador positions.
    Dr. Slater. So we have to temper their expectations somehow 
to understand that there is a progression and a career from 
beginning to that level.
    Once we get beyond that, we have an enormous level of 
success in getting students in. The three primary organizations 
they work in are the Department of Defense, Department of 
State, and the intelligence--the various agencies of the 
intelligence community. Almost two-thirds of them wind up in 
one of those agencies. But we have had 52 students, for 
example, complete their service or working their service 
requirement in International Trade Administration, Department 
of Commerce, as another example. We have had about 1,250 
students to date. The pipeline at any one time has about 700 
and 800 students seeking jobs.
    We are always looking for better ways to do it. As much as 
I would like to think the Federal Government is a simple 
process in finding jobs, it is not. The security clearance 
process can often delay an individual's actually coming into 
the government by a year or two. So we deal with lots of 
impediments in this process. But that is generally the numbers 
and track we have.
    Next year, the Department of Defense is initiating a new 
professional development program where we are hiring 
approximately 20 a year into the Department and in 2-year 
internship positions. So we are making a lot of advances in 
that area.
    Dr. Snyder. Mrs. Davis for five minutes.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    I am sorry I missed your earlier testimony, but maybe I can 
pick up on some of what you have said.
    One of the things you just mentioned is that even though 
you have these alumni, they are not able to get a fast track 
into a civilian job, into a government job. And it seems to me 
that that might be a good place to look for a process that we 
ought to be doing. We know, my goodness, I mean, anybody who 
wants to even work at the VA or anywhere has to go through a 
very long process, even if they have a specialty that is sorely 
needed. So it may be that in this area as well, there needs to 
be some way of taking a look at that. So I would be happy to 
see if you need anything from us, please, we might want to 
really make certain that you send a very direct message that 
anybody who goes through that program ought not to wait around 
for a year because by the time they get picked up by that 
agency who really needs them, they are off doing something 
else. So that is really critical.
    I am wondering whether you have had some thoughts as well, 
we have talked here in the Armed Services Committee about 
capturing those individuals who have gone over to Iraq, 
Afghanistan, ended up playing roles very different from what 
they had trained for, but they developed and found that they 
had some skills. Are you taking a look at that pool of 
individuals who have come back and are looking for, whether it 
is even in teaching or in language acquisition where they have 
a start and they could continue to build on that? How 
extensively are we tracking those individuals?
    Dr. Slater. That is an excellent question, and I think we 
certainly need to do more in that area. I would give two 
answers to that. One is--I think is, we started to work with 
all the Flagship centers. As I think Galal mentioned the new GI 
bill is certainly going to--this is a new generation of 
military that have been exposed to many languages and cultures 
that they were not exposed to in their earlier education; they 
are going to be returning over the next several years with a 
new interest in pursuing language study and culture study, and 
we would like to make sure that the universities are positioned 
to capitalize on that in the education process. So we were 
thrilled when Ohio decided that they would waive out-of-state 
tuition for individuals with that, and we would like other 
universities and states to follow suit with that so that we can 
capitalize on that.
    The other issue is the National Language Service Corps. We 
have an enormous diversity of talent in this country which we 
do not use, and that population you are talking about is one 
very important piece of that group. We see the Language Corps 
as an organization that can capture these people, put them to 
use, give them an opportunity to maintain and advance their 
language, and then serve the country and, eventually, state and 
local needs with that.
    So there are things. But you are absolutely right, we need 
to think more about other avenues for them as well.
    Mrs. Davis of California. I think what we would hope and 
look for is some kind of a real plan that would begin to do 
this, and that would build on our native language speakers that 
are in the country. I know even in the San Diego community, 
there are many people who have the ability to help and really 
weren't encouraged at all to do that. So we need to map all 
that help in some better way, and I think we really want to be 
helpful in that regard. The people who are returning are 
basically, a lot of them are here, and so we can't wait too 
much longer, I think, to have that kind of plan that works.
    The other thing I would just ask you in any time really 
left. In your experience looking over globally, I guess, to the 
language programs in foreign countries that actually have done 
an exceptional job of reaching very young children and beyond; 
clearly, I mean, if you are living in Europe and you have 
exposure, that is going to be very different for young 
children, but there are other possibilities. I know, as someone 
living in Japan many, many years ago, children loved to come by 
our house just to hear us speak English, and they were learning 
a little bit in school.
    What is it that we should be looking at beyond some of the 
programs? I have seen great immersion programs here in our 
country, and certainly San Diego has had some that are very 
successful. But is there anything that we can tap into that you 
have seen that really is quite different than our approach?
    Dr. Slater. Well, our approach is unique. We are, frankly, 
out to lunch on our approach. We talk to our European 
colleagues about learning from them what they do in languages. 
They say: We can't teach you anything, because by the time our 
students get to university they are done studying languages 
because they have done it.
    It is doing a better job in early education. It is dual 
immersion programs. We have enormous opportunities to build on 
populations that speak other languages as a first language and 
capitalize on that by communities building on that and building 
dual immersion programs, which not only enrich language 
learning but enrich learning in general in the schools. And the 
performance data we have suggests that performance in general 
across the curriculum is better. That is what we need to be 
doing. We can't defer this to the university.
    Our sense in Flagship is we want to challenge universities 
to take an advanced placement student in language and build on 
that to the higher level. But they should be already coming to 
the university with a facility in a second language. And that 
is what--so we can't learn a lot from other systems because 
they look at us and say: You are doing it backwards. And so 
that is what fundamentally needs to change.
    Dr. Walker. It sounds pretty good to me. But I do think 
that the one thing that we really need to pay attention to when 
we establish these programs is just the extended of sequence of 
instruction. And I don't want--again, just to repeat, don't 
waste the resource of having children up to a certain level in 
the language, and then for some reason or other, have them lose 
that. That I think is what we want to avoid.
    Dr. Snyder. We will go another round here. I want to hear 
from the three of you about the federal funding. If each one of 
you could talk first about the--I guess I want you to critique 
Dr. Slater's program, and ignore him. Pretend he is not here.
    How easy has it been to work with regard to federal 
funding? How important has it been to you? I don't want to go 
away from here if, in fact, the tail wags the dog. Is it a 
small part of your activity? Would each of you talk about that 
in terms of the accountability, how important federal dollars 
are? Can you use more, et cetera? I know the answer to that 
question. Go ahead.
    Dr. Givens. Yes. Well, we have had a very good working 
relationship with Bob, and that is not just because he is 
sitting here.
    The funding has been very important because it is actually, 
even though we have one of the largest Arabic teaching 
faculties, it still allowed us----
    Dr. Snyder. If I may interrupt. If you would distinguish, 
is funding important for the roadmap before your flagships?
    Dr. Givens. Both. Let me talk about as focusing on the 
Flagship first.
    So it has been very important. Well, for one thing it 
allowed us to develop new curriculum in pedagogies that have 
been very effective in getting students to a much higher level 
of proficiency than the traditional ways of doing it in the 
past. And so really, working with the Flagship program has had 
a major impact on our curriculum on getting students actually 
into the countries where they can really immerse themselves in 
the language and so on. I think it has really helped us to move 
our pedagogy and curriculum forward in a way that we might not 
otherwise have done. So I think the federal funding has really 
been a key to moving our programs forward both in Hindi, Urdu, 
and Arabic.
    And then in terms of the language roadmap, the federal 
funding basically kicked us in the rear and got us doing 
something that we might not otherwise have done, which is to 
really get a dialogue going across the state on this particular 
issue in a more focused way. It is not that these issues aren't 
already being discussed in the state of Texas, but it really 
has helped us to focus in and to support legislation that is 
already out there at the state level and to work with a group 
of people from government and business and education to try and 
come up with ways to get at these K-12 issues in particular.
    Dr. Bourgerie. I think it obviously has been very important 
to us. Again, we have a very strong language program 
traditionally. But even with that, as I said in my other 
remarks, that it has helped us to really change fundamentally 
what we do. It has also brought so many more students into the 
higher levels and, more recently, into the K-12 collaboration.
    Utah is a little different in several ways. We don't have a 
K-12 center, per se, but we have been given linkage funding and 
we have a lot of energy at the state level coming to us and 
saying, how can we partner? And obviously, I think if this is 
going to go well all around the country, there has to be lots 
of partnerships. There has to be partnerships between the 
states, the Federal Government, local governments. And that is, 
I think, we are seeing in a lot of the Flagship context right 
now.
    It has been extraordinarily important to get the 
infrastructure up that serves us well now, including the local 
infrastructure, but also the centers abroad which have served 
all the Flagship programs. And those have been fundamental to 
getting done what we want to get done at the advanced level.
    On the summit level, I should say that even though ours was 
funded by the state of Utah, very enthusiastically, I might 
add, we still benefit from the other three. We were able to 
look at their roadmaps. And had those not been done, I think it 
would have been hard for us to get the kind of enthusiasm that 
we did get in our summit and onward toward a language roadmap.
    I should also say that we did have some in-kind in-step 
support as well. Bob came up and donated a facilitator and some 
of the organizers to our group in Utah as well. So it has been 
important, and I really don't think we could have made this 
breakthrough without substantial help in that way.
    Dr. Snyder. Dr. Walker.
    Dr. Walker. One of the things that the NSEP funding 
particularly has done has allowed us to really focus on our 
results, to take a target and say that is what we are working 
toward, that is what we are going to get. In a way, in the past 
we already had those goals in mind, but we didn't have the 
resources to put in place and to constantly reach those goals.
    We have been allowed to engage in a lot of innovations. We 
have had funding, say, to develop an online assessment program 
that we can use to build electronic portfolios for our 
students, where our students can be evaluated from--by people 
anywhere, in China, here, and other universities. This is 
something that we wouldn't have been able to do. We have a 
center, the centers abroad in Nanjing and Qingdao. These are 
constant resources that we can send our students to, to get 
them working in the actual communities in China. When students 
return to us from those places, they come with experiences that 
students before them never had before. They have interacted 
with Chinese on all levels, from the neighborhood, even to 
interacting with officials in conducting community service 
projects that involved a wide range of people.
    And finally, the roadmap. I would say, for us, it allowed 
us--it brought us in to take our discussion of what we are 
doing in foreign language and culture and put it in the context 
of the people around us, the businesses and the people in 
government who have--sometimes, especially the people in 
government public service desperate needs for a language, 
sometimes its life and death.
    But in business, they have their own way of looking at the 
issue. A lot of times they do not perceive a need for language 
because it is so far from their minds that this is going to be 
available that they don't build it into their expectations. But 
once we start talking about it, we get a really good idea that 
they want the culture--language and culture, very important. 
And the language has to be involved with content that is 
professionally related. They have to be able to work in the 
languages.
    Dr. Snyder. Mr. Bartlett for five minutes.
    Mr. Bartlett. Thank you.
    I lived as a child during the Depression near a coal mining 
town in Western Pennsylvania. Most of the people worked in the 
coal mine were immigrants from European countries. I remember 
Little Italy as one of the streets in the little town I grew up 
near, and there were similar enclaves for those who came from 
Hungary and Czechoslovakia and so forth.
    My mother taught in the Americanization program for the WPA 
when the children of these immigrants were seeking to become 
American citizens because they came with their parents as 
children from overseas, I remember how proud the parents were 
that their children now spoke English and they really didn't 
want their grandchildren to speak the native language because 
they were Americans now. Now we have a multilingual country for 
which we are proud, and many see this as threatened by 
``English first.''
    I think we do an enormous disservice to our immigrants if 
we make it convenient for them not to learn English, because at 
least for the moment, English is the language of commerce in 
our country. If you don't speak English, you are destined to 
work forever in entry-level jobs. But the world has really 
changed. And contrary to this culture that I grew up in where, 
if you spoke something else you weren't an American, today I 
think it is very desirous that more and more of us speak more 
and more languages.
    Unless this is embedded in our culture, you are waging an 
uphill battle in the schools, because we have to see that as 
something coveted that we ought to be working for. How do we 
get the American people on board so that they value learning 
another language and really tell their kids, gee, we are 
looking forward to you speaking another language? How do we get 
our culture on board? It would make it a whole lot easier for 
you if we have them supporting you.
    Dr. Bourgerie. I think, first of all, they are getting on 
board much more than they have been in the recent years. Just 
the bonus demand that parents put out there toward getting 
programs, we get a lot of that. Almost daily we get people 
saying, why don't you do this? Why don't you have a good 
program in kindergarten for my daughter or son? And this 
happens in a lot of places.
    So I think the good news is the demand is there. I think 
that we are not doing a perfect job of fulfilling it, but I 
think the demand is much more out there than we thought.
    I appreciate your comments. I grew up in a sort of 
bilingual situation, too. Not Chinese, by the way, but with 
French and English. And my parents were French speakers and I 
always felt that it was a good thing, that I was very proud of 
the fact that I knew another language. Not a lot of my friends 
thought that. I lived in an Eastern European neighborhood where 
most of them tried to bury that.
    I think the key thing here is, too, that we do mine that 
heritage community as well as the others that we have and give 
them added value for who they are and what they are. And I 
think there are some good things going on in that respect as 
well.
    Mr. Bartlett. I am glad you are hearing that. I have been 
in Congress now for 16 years, and I have never had a 
constituent tell me, gee, we need to do more in learning 
foreign languages. So still I think, although you are hearing 
good things, I think we have a way to go before we really have 
our people on board and valuing this and pushing for it.
    Dr. Bourgerie. Especially in key languages. We get daily 
calls in our center, many calls, saying when are you going to 
have--so maybe it varies from language and region, but I think 
there is some good news out there, too.
    Mr. Bartlett. Thank you very much, Mr. Chairman.
    Dr. Snyder. Mr. Bartlett, I am not sure all our 
constituents appreciate the national security aspects of this 
need, though, either. I think how significant it could be in 
the past and how significant it can be in the future.
    Mr. Miller for five minutes.
    Mr. Miller of California. Thank you. I am going to have to 
leave after this question; I have a leadership meeting. But 
thank you very much for this hearing again, Mr. Chairman, and 
to the witnesses I hope to get back to the witnesses.
    If I might just ask one question. When we reauthorized No 
Child Left Behind and in the preliminary drafts and 
suggestions, we have been having this struggle over curriculum. 
There has been a popular belief that No Child Left Behind 
requires you to narrow your curriculum, teach to the test, 
dummy it down. Okay. Some people did and some people didn't, 
and that is the case.
    My worry is that if we come on, we are going to have--
people want us to introduce science into the testing languages 
into the testing. But, again, for most schools we will have 
something that looks like language, we will have a quick, 
inexpensive to grade multiple choice test that will look more 
like vocabulary than anything else, and we will be done with 
it. And I think that before we put this demand on school 
districts all over the country, we have got to have some sense 
of what the best practices are, what the best curriculum is, 
and what is the curriculum that drives the deepest learning and 
hopefully retention.
    You talked about creating this environment in the schools 
and engagement of these students and this learning at a very 
early age. I doubt there are many teachers who would be 
comfortable doing that unless it is sort of a rote prescription 
that we give teachers; when they don't have the capacity, we 
then give them a prescription for each moment of their life in 
that classroom. And you now have some of these programs.
    What are you doing about back and forth on best practices 
and curriculum development so that the assessment doesn't drive 
the curriculum, the curriculum drives the assessments? I know 
it is expensive, but it may very well be we get a better return 
on our dollar than what we are doing today.
    Dr. Walker. Well, one thing I can say is that what we are 
looking for, especially in our K-5 curriculum or K-12 
curriculum in total, is performance, performance features. For 
example, if a young person, let's say a five-year-old or a six-
year-old can do something in Chinese, we can make it a very 
limited amount of things that they are able to do. I would say 
there are about 10 questions that an adult will ask a child in 
Chinese, so we can train the children to respond to those 10 
questions pretty readily. But we can also focus what we want 
them to do and what we want them to respond to, to the 
environment around them. They are not too good at learning 
lists of things, but they are very good at learning how to do 
things. So I think what we need to do is sort of identify, what 
would we expect children at a particular level to be able to 
do?
    When we are designing our curriculum, we kind of try to 
avoid the grade-by-grade development. We have what we call the 
phase, phase one, phase two, phase three. And these are sort of 
designed on a parallel to sort of orchestra; beginning 
orchestra, intermediate orchestra, and advanced orchestra. So 
we feel that if a student wants to begin Chinese, just as if a 
student wants to start the French horn, they have to begin in 
phase one or beginning orchestra and work their way up. And we 
think that kind of thing, we can describe what is expected out 
of those different phases almost precisely. And a lot of this 
is just based on research about how children use languages. And 
if we teach--for example, we teach Chinese to kind of conform 
to how children use language, the fact that they will learn to 
do it, it seems to be much more assured. I don't know if that 
answers your question.
    Mr. Miller of California. That is helpful. I like the 
process. My concern is that we will end up with a federal 
mandate and very little capacity to carry out the mandate or an 
understanding of what we might do, the process you described as 
phase one, a lot of students could learn from their peers. 
There could be a lot of interaction, there could be a lot of 
basics that are learned. But my concern is that we go sort of--
we go broad and we go thin and then we are happy. That doesn't 
work in math, and it doesn't appear that it works in language.
    Dr. Slater. I think the fascinating part of the learning 
experience of these state language roadmaps tells us a lot 
about the process. We are not even close to a point where I 
would say we want a federal mandate for schools across the 
United States to teach Chinese or to teach Arabic or to teach 
French. What we found from the state----
    Mr. Miller of California. Let me tell you, there is a lot 
of people in the Congress who think we should have a federal 
mandate to teach language, and they would be real happy and 
check the box and move on. I think that has turned out to be a 
disaster.
    Dr. Slater. What we are finding is every state is 
different. And it is not like teaching math. You may have a 
population, for example, in Texas where Spanish is the dominant 
language. That is a language where there is a need. You might 
find a Hmong population in Minnesota that can capitalize on 
that, an Arabic population in parts of Ohio that might.
    So we need a special kind of federal-state partnership in 
the language area that recognizes that reality, I would argue, 
as opposed to the mandate that we all teach languages, all say 
we have done our job and it is in everybody's curriculum, and 
wind up with one or two successes and mostly mediocrity. I 
think that is--I think that is what I would argue is almost a 
given from our perspective.
    Dr. Bourgerie. Real quickly. I think one of the bigger 
challenges in mind is not only the best practices but getting 
by from afield. You can put all that out there, but if there is 
a deep-seated paradigm against this quality teaching, you are 
nowhere. And I think we run into a lot of that, and that to me 
is even a bigger challenge of finding best practices.
    Mr. Miller of California. Thank you. Thank you again, Mr. 
Snyder.
    Dr. Snyder. We have been joined by ranking member Mr. Akin.

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Mr. Chairman, I have a statement that I will 
submit for the record, and then just go ahead and pass to the 
other members who have been here and have questions.
    Dr. Snyder. Thank you, Mr. Akin.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 37.]
    Dr. Snyder. Mr. Holt for five minutes.
    Dr. Holt. Thank you, Mr. Chairman. And a very good hearing. 
I appreciate being included.
    Let me get several questions on the record, and if we can't 
get answers orally, maybe you could submit later information.
    There is this term called critical languages, and needs of 
our Nation pop up. I mean, we should do a better job of, or 
maybe we should have known we needed more Arabic or we would 
have needed more Arabic, maybe we should have known we would 
need more Pashtu. But or maybe now we recognize or will 
recognize we need more Dari or Farsi. But how do we plan ahead? 
I mean, really, what is the--do we do a good job of defining 
critical in choosing the languages that we are going to support 
to anticipate future needs?
    And then a fundamental question really in any government 
program is how good are our metrics, our measurements? We talk 
about 3/4/4 or 3/3/3. Does that have any consistent meaning 
from school to school, from agency to agency? Is that the right 
way of measuring whether we are successful in any of these 
programs with the individual students?
    And then in the new pathways, Dr. Slater, you talk about 
meeting the needs of the language learners who wish to achieve 
professional proficiency and creating content-based curriculum 
for students in a variety of disciplines. I have been pushing 
for language programs that are combined with the science and 
technology, the science education, for example. Does that make 
sense? Is it working? Or should there just be language 
programs, and science students will take them if they want? 
Should they truly be integrated? Are there reasons to continue 
down that line based on our experiences so far?
    And the other question I was going to ask, although I think 
you have addressed it in response to Chairman Miller's 
questions. The roadmap and the various articulated programs 
that are under development to take students from kindergarten 
through university languages, recognizing that students and 
families move around a lot and won't always be in the Hmong 
Minnesota area or the Arabic Ohio area. Does it call for the 
dreaded national curriculum, national standards? I think you 
were all saying no, but I have to ask that question.
    So in the few minutes remaining here, let me throw it open 
to those questions.
    Dr. Slater. Well, let me start and answer two of them and 
let my colleagues answer any of the others or duplicate.
    Critical languages, we are doing a better job. Five, 10 
years ago there, we didn't know what that meant. I think 
certainly within the Department of Defense, we now have a list 
of current need languages and trying to project out what the 
additional languages might be. So I think we have a sense.
    But I would always ask, critical for what? Critical for 
national security? Critical for intelligence? I think that 
there, we are getting a better handle on that. But there are 
many others. As we have learned in the state roadmap process, 
there are many other drivers in the country for critical 
languages. What does business need? What do we need to service 
local populations? So we need to do a better job.
    That being said, there are always going to be languages 
that catch us unprepared. So like the language corps and some 
other mechanisms, we need to figure out ways to mobilize 
populations. In our exercise in the language corps with the 
Centers for Disease Control they ask for Marshallese. We have 
no Marshallese programs in the United States, but we do have 
significant populations of Marshallese. We need ways to be able 
to identify and bring that expertise to bear if there were a 
particular issue. Vietnamese was an issue post-Katrina. We need 
ways to develop approaches to that. So that, I would answer we 
still have a ways to go.
    The content-based issue that you raised, we are finding a 
lot of success. One of the main reasons students drop languages 
in particularly university level is because the language 
becomes irrelevant to them by the second year, by the time they 
are done with the requirement, because they are studying 
business, economics, political science, physics, and the 
language class is 17th century literature. And all of a sudden, 
the whole reason for studying languages escapes them.
    We are finding in Flagship, because the students have an 
opportunity to continue their language study as an integral 
part of their curriculum that they are staying with it, because 
of all a sudden they see that opportunity. So we are seeing a 
lot of successes. The diversity of our student enrollment is 
really quite extraordinary because of that. I think certainly 
at university level that is the way to go the to capture those 
students and keep them involved.
    Dr. Holt. Thank you very much.
    Mr. Chairman, if you do get written answers to any of those 
questions, I would appreciate seeing them.
    Dr. Snyder. Absolutely.
    Mrs. Davis for five minutes.
    Mrs. Davis of California. Thank you.
    You mentioned the Flagship program right now. Do you know, 
in that program students are directed toward government 
positions and other high-level positions? Is that correct? 
Right?
    Dr. Slater. There are two pieces of Flagship. There is a 
post-baccalaureate program which we give fellowships. There are 
probably about 30, 35 fellowships awarded a year. They all are 
directed toward the Federal Government. They have a 
requirement. The undergraduate program is a much broader based 
program. They do not receive direct scholarship funding from 
us; therefore, they have no requirement, but we are working 
with all of them to provide them with information on federal 
careers. Many of them want to pursue that, so we are giving 
them information and getting federal career people out there to 
talk to them, to attract them to the federal. So we are working 
on that in two avenues.
    Mrs. Davis of California. Do you have, and perhaps in the 
other programs. I think what I am trying to wonder about is of 
those individuals who study language and they study at a high 
enough level that they can go on and do something with it, I 
had just some thoughts about trying to get people security 
clearances while they are in that first program, the beginning 
of it. But how many of those actually go into teaching? Do we 
know?
    Dr. Bourgerie. I had a list that I didn't share with you 
earlier. But our students, about 45 graduates, undergraduates 
recently, 12 of them are in Federal Government institutions in 
some way. We have people in China-based businesses. Some stay 
in China and work. We have two in medical school, for example, 
technology firms, several accounting firms, Commerce 
Department. Many other fields. And they are finding a place to 
use it. And as we mentioned before, often it is the second job 
that they get. Sometimes we have to encourage them to say as 
this comes along. We had a student just recently who had been 
working at KPMG not using his Chinese in Southern California. 
Now he was hired just recently with a firm that does almost 
their business in China.
    So I think you are seeing all sorts of different fields, 
depending on their interests. And that is really built into 
Congressman Holt's question, too, that his domain or what we 
call domain is built into all the flagships. They have to do 
something besides their field. So they have to have Chinese and 
something.
    Mrs. Davis of California. Is it a concern that perhaps not 
a large enough number of those individuals actually do go into 
teaching, though, so that they can teach?
    Dr. Bourgerie. I think this program has never had that as a 
target, though. There are lots of programs that target teachers 
and this doesn't have that as a main target, although we have 
had a few who ended up in teaching.
    Dr. Givens. Our UTeach program does target those to go into 
teaching. It is a relatively new enough program that I don't 
have the exact numbers how many have gotten placement. But that 
is a language specific program that is designed to have 
teachers who have the skills to teach even some of these 
critical languages. But it is not directly related to the 
Flagship.
    Dr. Walker. That is the same. At Ohio State University, we 
have MA and Ph.D. level in Chinese language pedagogy or other 
language pedagogies, and those are people who are trained 
specifically to become teachers. People who are attracted to 
the NSEP, to the Flagship program are largely people who are 
interested actually in government service. Their dream is to 
come to Washington and have a career. This is one of the--so 
that is a clear distinction between those two groups of 
students.
    Mrs. Davis of California. Part of my concern is, of the 
universe of students who would even begin in the early grades, 
maybe get enough in middle school to go on to high school and 
then maybe into college and keep those skills, how many of them 
actually do go into teaching? What I am looking for is perhaps 
we need to know a little bit more about that pathway, and are 
there places along the pathway where we are not really doing 
enough work to encourage people to go into teaching, those who 
have the skills who could be great teachers in the field, 
because there are other enticements, like in anything today 
where it is difficult to get people to go into teaching if they 
are going to go into business or biological sciences, whatever 
that might be.
    And I don't know whether we are doing enough to really make 
certain that we have a kind of pathway that is so enticing for 
teachers in language that we need to perhaps do more. And I 
think that is partly where the government funding comes into 
that and the assurances that there is going to be something at 
the end of the line. I think that school districts have a 
difficult time retaining some of those programs, as we all 
know, and that is part of the rub here.
    Dr. Walker. We could always do a better job of actually 
keeping track of our students. That is one of the main 
challenges, I think, facing all of us in this area of activity. 
In terms of, a lot of the times, getting people into teaching 
is not as big a problem as keeping them in teaching. And that 
is, I think, an issue that kind of goes, you know, is broader 
than us.
    Dr. Snyder. Thank you, Mrs. Davis.
    Thank you all for being here this morning. I think it has 
been very helpful. I want to formally thank Chairman George 
Miller and Rush Holt for joining us. They are not members of 
the House Armed Services Committee, but I asked if they would 
attend and they did, and they appreciate the work that you are 
doing.
    We have this formality of questions for the record. Members 
may have written questions they want to submit to you, and we 
appreciate you getting back your answers in a timely fashion.
    Let me also suggest, though, accepted as a question for the 
record: If there is anything you think that you forgot about or 
you would like to add on, or you get back and think that was 
the dumbest thing you said and you need to correct it, feel 
free to submit. Anything you sent us written in response to 
this question will be made a part of the record and will be 
shared with the other members. We appreciate you all for being 
here. And we are adjourned.
    [Whereupon, at 11:43 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           September 23, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 23, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5828.001
    
    [GRAPHIC] [TIFF OMITTED] T5828.002
    
    [GRAPHIC] [TIFF OMITTED] T5828.003
    
    [GRAPHIC] [TIFF OMITTED] T5828.004
    
    [GRAPHIC] [TIFF OMITTED] T5828.005
    
    [GRAPHIC] [TIFF OMITTED] T5828.006
    
    [GRAPHIC] [TIFF OMITTED] T5828.007
    
    [GRAPHIC] [TIFF OMITTED] T5828.008
    
    [GRAPHIC] [TIFF OMITTED] T5828.009
    
    [GRAPHIC] [TIFF OMITTED] T5828.010
    
    [GRAPHIC] [TIFF OMITTED] T5828.011
    
    [GRAPHIC] [TIFF OMITTED] T5828.012
    
    [GRAPHIC] [TIFF OMITTED] T5828.013
    
    [GRAPHIC] [TIFF OMITTED] T5828.014
    
    [GRAPHIC] [TIFF OMITTED] T5828.015
    
    [GRAPHIC] [TIFF OMITTED] T5828.016
    
    [GRAPHIC] [TIFF OMITTED] T5828.017
    
    [GRAPHIC] [TIFF OMITTED] T5828.018
    
    [GRAPHIC] [TIFF OMITTED] T5828.019
    
    [GRAPHIC] [TIFF OMITTED] T5828.020
    
    [GRAPHIC] [TIFF OMITTED] T5828.021
    
    [GRAPHIC] [TIFF OMITTED] T5828.022
    
    [GRAPHIC] [TIFF OMITTED] T5828.023
    
    [GRAPHIC] [TIFF OMITTED] T5828.024
    
    [GRAPHIC] [TIFF OMITTED] T5828.025
    
    [GRAPHIC] [TIFF OMITTED] T5828.026
    
    [GRAPHIC] [TIFF OMITTED] T5828.027
    
    [GRAPHIC] [TIFF OMITTED] T5828.028
    
    [GRAPHIC] [TIFF OMITTED] T5828.029
    
    [GRAPHIC] [TIFF OMITTED] T5828.030
    
    [GRAPHIC] [TIFF OMITTED] T5828.031
    
    [GRAPHIC] [TIFF OMITTED] T5828.032
    
    [GRAPHIC] [TIFF OMITTED] T5828.033
    
    [GRAPHIC] [TIFF OMITTED] T5828.034
    
    [GRAPHIC] [TIFF OMITTED] T5828.035
    
    [GRAPHIC] [TIFF OMITTED] T5828.036
    
    [GRAPHIC] [TIFF OMITTED] T5828.037
    
    [GRAPHIC] [TIFF OMITTED] T5828.038
    
    [GRAPHIC] [TIFF OMITTED] T5828.039
    
    [GRAPHIC] [TIFF OMITTED] T5828.040
    
    [GRAPHIC] [TIFF OMITTED] T5828.041
    
    [GRAPHIC] [TIFF OMITTED] T5828.042
    
    [GRAPHIC] [TIFF OMITTED] T5828.043
    
    [GRAPHIC] [TIFF OMITTED] T5828.044
    
    [GRAPHIC] [TIFF OMITTED] T5828.045
    
    [GRAPHIC] [TIFF OMITTED] T5828.046
    
    [GRAPHIC] [TIFF OMITTED] T5828.047
    
    [GRAPHIC] [TIFF OMITTED] T5828.048
    
    [GRAPHIC] [TIFF OMITTED] T5828.049
    
    [GRAPHIC] [TIFF OMITTED] T5828.050
    
    [GRAPHIC] [TIFF OMITTED] T5828.051
    
    [GRAPHIC] [TIFF OMITTED] T5828.052
    
    [GRAPHIC] [TIFF OMITTED] T5828.053
    
    [GRAPHIC] [TIFF OMITTED] T5828.054
    
    [GRAPHIC] [TIFF OMITTED] T5828.055
    
    [GRAPHIC] [TIFF OMITTED] T5828.056
    
    [GRAPHIC] [TIFF OMITTED] T5828.057
    
    [GRAPHIC] [TIFF OMITTED] T5828.058
    
    [GRAPHIC] [TIFF OMITTED] T5828.059
    
    [GRAPHIC] [TIFF OMITTED] T5828.060
    
    [GRAPHIC] [TIFF OMITTED] T5828.061
    
    [GRAPHIC] [TIFF OMITTED] T5828.062
    
    [GRAPHIC] [TIFF OMITTED] T5828.063
    
    [GRAPHIC] [TIFF OMITTED] T5828.064
    
    [GRAPHIC] [TIFF OMITTED] T5828.065
    
    [GRAPHIC] [TIFF OMITTED] T5828.066
    
    [GRAPHIC] [TIFF OMITTED] T5828.067
    
    [GRAPHIC] [TIFF OMITTED] T5828.068
    
    [GRAPHIC] [TIFF OMITTED] T5828.069
    
    [GRAPHIC] [TIFF OMITTED] T5828.070
    
    [GRAPHIC] [TIFF OMITTED] T5828.071
    
    [GRAPHIC] [TIFF OMITTED] T5828.072
    
    [GRAPHIC] [TIFF OMITTED] T5828.073
    
    [GRAPHIC] [TIFF OMITTED] T5828.074
    
    [GRAPHIC] [TIFF OMITTED] T5828.075
    
    [GRAPHIC] [TIFF OMITTED] T5828.076
    
    [GRAPHIC] [TIFF OMITTED] T5828.077
    
    [GRAPHIC] [TIFF OMITTED] T5828.078
    
    [GRAPHIC] [TIFF OMITTED] T5828.079
    
    [GRAPHIC] [TIFF OMITTED] T5828.080
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 23, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. The sponsors for the state summits included the 
Departments of Defense, Labor, and Commerce. Why weren't the 
Departments of State and Education included?
    Dr. Slater. The State summits were designed to focus primarily on 
the economic and workforce needs for languages as distinct from needs 
based on national security and foreign affairs. Consequently, the 
Department of Defense reached out to the Departments of Commerce and 
Labor to cosponsor the summits. The Departments of Education and State 
were invited to send representatives to the summits and the Department 
of Education sent a senior representative to one of the summits. 
Because the State summits emphasized the articulation of needs at the 
local and State level, we were also careful to limit the involvement of 
Federal representatives in these efforts.
    Dr. Snyder. Is the Office of Personnel Management involved at all 
with the NSLI, Flagships, or the NLSC? Does the National Security 
Professionals Initiative include requirements or encouragements for 
language and culture?
    Dr. Slater. OPM has not had any direct involvement with the 
Flagships. However, efforts to establish procedures for hiring and 
activating members of the NLSC have been closely coordinated among OPM, 
the Defense Human Resource Activity, within the Office of the Under 
Secretary of Defense for Personnel and Readiness, and the Department's 
Civilian Personnel Management Service.
    Dr. Snyder. What can DOD and Congress do to facilitate the 
clearance process for NSEP graduates?
    Dr. Slater. The Department has made significant progress in 
developing approaches to facilitating the clearance process for NSEP 
graduates. During 2008, DoD approved an approach that would allow NSEP 
award recipients to be processed for security clearances on a case-by-
case basis, as soon as they have accepted their award instead of upon 
offer of a position. NSEP is working closely with key DoD organizations 
to develop a process that will implement this approach. It should 
provide opportunities for as many as 100 NSEP award recipients to gain 
security clearances each year well ahead of their job searches.
    The security clearance process does, however, remain daunting, 
particularly for NSEP award recipients who study in certain areas of 
the world. We need to continually strive for ways to ensure that 
appropriate security clearance processes are carried out while, at the 
same time, avoiding the loss of highly-talented individuals like those 
who are funded by NSEP.
    Dr. Snyder. Recognizing that the DOD schools are generally ahead of 
their civilian counterparts in foreign language and cultural awareness 
instruction, what new programs are being considered for CONUS and 
OCONUS DOD schools on language and culture (K-12 articulation)? Is this 
a legitimate area for NSEP involvement?
    Dr. Slater. NSEP has held discussions with representatives of the 
Department of Defense Education Activity (DoDEA) on how United States 
based DoDEA schools can benefit from the Flagship K-12 pilot 
initiatives. For 2009, the Language Flagship is undertaking a review of 
all K-12 immersion programs. We intend to examine domestic and overseas 
DoDEA schools in this effort as well.
    DoDEA is actively pursuing efforts to support foreign language and 
cultural education. DoDEA's foreign language program offers instruction 
in Arabic, Chinese, French, Korean, German, Italian, Japanese, Spanish, 
and Turkish in its secondary schools. Some less commonly taught 
language courses are demographically localized to regions of the world 
where the language is spoken. Elementary programs include ``Foreign 
Language in Elementary School'' in Spanish for K-3 in 62 schools and 11 
partial immersion programs in varying languages to include German, 
Italian, Korean, Japanese, and Spanish. DoDEA's students study the 
history, culture, customs, traditions, and language of the host nation 
in which they live.
    Dr. Snyder. What is the percentage of NSEP graduates who have 
entered federal service (1200 of how many?)? Does NSEP recruit or 
accept ROTC students? The Flagships?
    Dr. Slater. NSEP's data on completion of the service requirement is 
based on submission of an annual ``Service Agreement Report'' submitted 
by each award recipient. To date, approximately 2,550 NSEP award 
recipients have incurred a service requirement since 1996 (recipients 
in 1994 and 1995 did not incur a service requirement). Of these 2,550, 
approximately 300 are furthering their education and have been granted 
extensions. An additional 91 have either been granted a waiver, opted 
to repay the scholarship/fellowship, or have been forwarded to the 
United States Treasurer for collection. Of the remaining 2,150, many 
are still enrolled in degree programs and are not actually candidates 
to fulfill the requirement.
    Our current records indicate that approximately 1,350 award 
recipients have completed or are currently fulfilling their service 
requirements. Seventy-four percent (998) of these 1,350 are fulfilling 
the requirement in the Federal Government with the remainder in higher 
education (note that from 1996-2004, award recipients had the option of 
fulfilling the requirement in higher education). A number of our award 
recipients have served in more than one Federal position, with the 
result that 1,200 Federal positions have been filled with NSEP alums.
    A total of 114 Flagship Fellows have been funded since 2004. Of 
these 114, 17 are continuing their education and have received 
deferrals of their service requirement. Of the remaining 97, 40 have 
secured positions in the Federal sector. Many of the remaining 57 are 
just reaching the point of seeking Federal positions and we expect a 
very high percentage of them to be successful.
    The numbers and percentage of award recipients gaining Federal 
positions has increased steadily since 2001. New programs have been 
developed in Federal agencies to identify positions for NSEP award 
recipients. The State Department waives the written exam requirement in 
the Foreign Service for NSEP Graduate Fellows.
    NSEP does accept applications from ROTC students as well as 
students in the military Reserves. However, the National Security 
Education Act of 1991 includes a stipulation that there may not be, 
during the period of study under the award, any relationship between 
the award recipient and any Federal agency or organization involved in 
United States intelligence activities. Consequently, NSEP requires any 
award recipient who has such a relationship, to officially terminate 
the association for the period of the award.
    Dr. Snyder. The service witnesses at the previous hearing and in 
our briefings related that the NSEP program doesn't feed them graduates 
for civilian personnel. Does the NSEP staff try to work with the 
services' manpower and human resources staffs to find placements?
    Dr. Slater. Our NSEP service placement staff has met with 
representatives from the Services to identify possible placements. 
There have been a significant number of placements with the Services 
and at the Combatant Commands. This is clearly an area for expansion 
and improvement.
    Dr. Snyder. Have any NSEP graduates or Flagship participants ever 
taught at DLI or any of other Defense school or program? Understanding 
that there was a contraction in the Russian Department there in the 
90s, is there a demand now for newly-minted masters degrees or 
doctorates? (Dr. Givens mentioned they needed placements for Russian 
teachers among others.)
    Dr. Slater. Upon occasion, an NSEP or Flagship graduate will work 
with DLI. However, DLI tends to hire only native speakers of the 
language as its instructors making most NSEP award recipients 
ineligible for instructor positions. It is likely that more NSEP and 
Flagship graduates would consider DLI if there were positions open to 
them.
    Dr. Snyder. If you got more money, how would you spend it for NSEP? 
For NSLI? What existing programs would you enhance? What new 
initiatives would you start?
    Dr. Slater. The Language Flagship is beginning to make a 
significant impact on language teaching in United States higher 
education. NSEP could diffuse innovation throughout a broader spectrum 
of universities across the U.S. In addition, while not proposing to 
address K-12 education in the United States--a more appropriate effort 
for the Department of Education--Flagship could expand its articulation 
efforts between higher education and high schools in the U.S. 
Certainly, an expansion of quality, proficiency-based high school 
language programs would not only enhance the Flagship effort to 
graduate professionally proficient university students, but it would 
also address the needs of the Services for recruits with language 
skills.
    NSEP could also expand its partnership with the States to expand 
the language roadmap effort. While it is imperative that the initiative 
for language roadmaps must come from each State, an expanded Federal-
State partnership in this arena would provide additional incentives to 
organize and coordinate the process.
    NSEP's English for Heritage Language Speakers (EHLS) program can 
also be expanded. At present, the program, designed and implemented at 
Georgetown University, can only accommodate up to 30 students a year. 
Only in its third year, 30 graduates have been placed in positions 
throughout the Department of Defense, Department of Homeland Security, 
Department of State, and the intelligence community. EHLS graduates 
have played a pivotal role in helping the Central Intelligence Agency 
start up its Open Source Works organization, an operation designed to 
provide open source analysis.
    Dr. Snyder. Do NLSC volunteers get any deployment preparation, 
training or equipment? What civilian and military reserve models were 
pursued for the NLSC program planning? Who will run the 24/7 ops 
center? Who will approve requests for support and how will requests be 
prioritized (p. 20 of written testimony)? Please explain the NLSC logo 
and tagline (p. 21 of written testimony).
    Dr. Slater. NLSC members will receive extensive readiness training 
throughout their membership. Member readiness includes training 
necessary for NLSC members to be prepared for activation, deployment, 
and redeployment and to successfully perform as a member of a 
Government team. Examples of this training include personal 
preparations for activation, deployment, and redeployment, the culture 
of the organization being supported, the roles and functions of the 
NLSC and its members, and what it means to work as a member of a 
Government team. Specialized deployment training and equipment will be 
supplied by the gaining organization, if required, for specific 
deployments.
    The NLSC has examined and adapted concepts from several Reserve and 
volunteer service models, including the United States Military Reserve 
and National Guard, the Department of State's Civilian Response Corps, 
AmeriCorps, Disaster Medical Assessment Teams, Disaster Mortuary 
Operational Response Teams, and the Office of the Civilian Volunteer 
Medical Reserve Corps in developing and improving the concept of 
operations for the NLSC.
    The NLSC staff will run the 24/7 operations center. The staff will 
have both Government and, where acceptable, contractor support 
employees.
    Requests for services will be processed in the order they are 
received unless national needs dictate a higher priority. Final 
priority assignment and approval rests with the Director of NLSC.
    The NLSC logo represents unity and diversity of people and 
language. It reflects that the NLSC members are a diverse group who 
cross cultural boundaries by speaking more than one language to work 
together towards a greater good for all. Each thread in the logo is 
part of a woven fabric without a finished edge, representing the fact 
that languages are not limited by manmade borders. The weave itself 
signifies that any individual or individual language can perform alone, 
but when working together, individuals become something far more 
versatile that protects and adds beauty to our world. Similarly, 
individual threads are stronger when woven together than each is 
separately. The NLSC logo symbolizes the best of human nature that we 
see exhibited when we pull together in times of crisis and emergency 
around the globe.
    Language for the good of all is the accompanying tagline that 
expresses how the NLSC, as a public program, adds meaning and purpose 
to one's language skills and strengthens global unity. It builds upon 
the theme of service that was identified as a main motivator for 
individuals to join the NLSC during the branding study conducted as 
part of the feasibility assessments of the program.
    Dr. Snyder. There have been proposals for stronger centralization 
and direction of the Federal government's language program. Some would 
establish a council as well as a national language director in the 
Executive Office of the President. Would this be helpful? What 
drawbacks do you see? Why establish a ``council'' instead of something 
like the Office of Science and Technology Policy or a ``czar''?
    Dr. Slater. The Department of Defense (DoD) has long favored an 
ongoing dialogue on the best approach to ensure coordination and 
direction of language programs across the Federal Government. The 
National Security Language Initiative represents an important step in 
this direction as it brings together senior representatives from the 
four participating organizations: DoD, State, Education, and Office of 
the Director of National Intelligence. The Department continues to look 
for opportunities to develop stronger coordination across agencies.
    Dr. Snyder. How could the Dept of Education take over the Diffusion 
of Innovation role that DOD has taken to encourage, guide and support 
the state programs and flagships? Are there challenges beyond just the 
funding?
    Dr. Slater. The Department of Education could adopt approaches 
within its own programs under Title VI of the Higher Education Act that 
would support and enhance the reach of Flagship. Additionally, it could 
adopt approaches within its own programs under Title VI of the Higher 
Education Act that would support high-quality undergraduate language 
instruction that follows the Flagship model.
    Dr. Snyder. What federal funding has been authorized and obligated 
for the 5 programs that fall under the Defense Department for NSEP? Is 
there any additional information you would like to add for the record?
    Dr. Slater. During Fiscal Year 2008, Congress authorized $44.7 
million in support of the five major programs that currently fall under 
NSEP. These funds have been obligated as follows:


1. NSEP Boren Undergraduate Scholarships:                                                            $ 2 million
2. NSEP Boren Graduate Fellowships:                                                                  $ 2 million
3. English for Heritage Language Speakers                                                            $ 2 million
4. National Language Service Corps                                                                 $ 7.5 million
5. Language Flagship                                                                                $ 26 million



    The remaining funds have been obligated to support NSEP 
administrative and contract efforts, including staff salaries, office 
rent, and information technology support.
    Dr. Snyder. Are Flagship graduates made aware of, and encouraged to 
volunteer for, the National Language Service Corps?
    Dr. Slater. Yes. As we launch the NLSC recruiting effort, we are 
identifying as candidates all recipients of National Security Education 
Program (NSEP) awards, including Flagship graduates. NSEP is currently 
developing an algorithm that will provide these individuals with credit 
against their Federal service requirement both for joining the NLSC 
and, of course, for service that results from activation.
    Dr. Snyder. The Department and others liken the shock of 9/11 to 
the shock over the launching of Sputnik and suggest that the nation 
needs to react with a similar commitment of resources and 
determination. Are the current efforts toward improving language 
instruction and cultural understanding on a similar scale? What kind of 
leadership at the national level would you like to see on this?
    Dr. Slater. Significant progress has been made in advancing the 
effort to improve language instruction and cultural understanding 
across a broader cross-section of Americans. We still have a very long 
way to go particularly in building more effective programs during early 
childhood education. Some of this can be addressed through programs 
such as the Flagship program that supports advanced language learning 
for students of all undergraduate majors. This must be coupled with 
stronger and more effective national leadership that stresses the 
importance of well-developed and carefully articulated second language 
learning as integral to the entire educational process, along with the 
study of science and math.
    Dr. Snyder. Have you taken or evaluated DLPT5 or DLI's 
instructional methodology or curriculum?
    Dr. Slater. The National Security Education Program (NSEP) is not 
directly involved in issues related to the DLPT5. A number of Flagship 
graduates have taken the DLPT5 and NSEP continues to work with DLI 
leadership to identify approaches that will facilitate our award 
recipients having the opportunity to be tested.
    NSEP has worked to build stronger collaboration with DLI in the 
instructional methodology and curricular development arena. In 
September 2008, NSEP, at the request of the Deputy Under Secretary of 
Defense for Plans, sponsored a major meeting among representatives from 
DLI, the military academies, and key institutional project directors of 
Flagship centers. At this meeting, participants developed an initial 
agenda for areas of collaboration among these constituencies.
    Dr. Snyder. It was not entirely clear in the hearing how languages 
are designated as ``critical.'' How does this process work?
    Dr. Slater. The Department of Defense develops and maintains an 
annual list of ``stronghold'' and ``investment'' languages. The 
National Security Education Program relies on these lists to develop 
its focus for emphasis of languages in all of its programs.
    Dr. Snyder. Is the American Council of Teaching Foreign Language's 
test a ``gold standard'' for assessment? What important skills doesn't 
it evaluate?
    Dr. Slater. When people refer to the ACTFL assessment, they are 
almost exclusively referring to the Oral Proficiency Interview. It is 
the most widely used test in the public sector for the assessment of 
speaking proficiency. This test has been reviewed and revised to 
demonstrate assessment validity and reliability for 25+ years. ACTFL 
proficiency levels are referenced off of the Interagency Language 
Roundtable proficiency guidelines. ACTFL proficiency tests are 
currently being used worldwide by academic institutions, Government 
agencies, and private corporations for purposes such as: academic 
placement, student assessment, program evaluation, professional 
certification, hiring, and qualification for promotion. More than 
12,000 ACTFL tests are conducted yearly through the ACTFL Testing 
Program. Currently, ACTFL offers oral proficiency testing in more than 
65 languages. The ACTFL Writing Proficiency Test is much less commonly 
used and only represents 12 languages. ACTFL does not offer assessments 
for reading and listening.
    Dr. Snyder. What is your Roadmap's vision for teaching foreign 
language in other subject areas? Is there utility on combining content 
like language and science?
    Dr. Slater. We strongly believe that the teaching of languages must 
be more fully integrated into the core curriculum for all students. 
Many students do not pursue language beyond elementary study because 
they do not see a link between their content studies and language 
learning. Through a number of initiatives in Flagship, we have promoted 
the concept that language curriculum is stronger if it is offered in 
content related courses throughout K-12 and higher education. All 
Flagship programs teach content courses in the target language. The 
Roadmap efforts have strongly supported the concept of ``dual 
immersion,'' which operationalizes the concept of teaching languages 
across the curriculum. Dual immersion programs very effectively draw on 
the richness of languages spoken by students in the system.
    Dr. Snyder. How do the Roadmaps account for the transient nature 
much of the U.S. population--that students move from state to state? 
Should there be some national requirement or curriculum?
    Dr. Slater. The Roadmap effort, as well as all programs supported 
under Flagship, emphasizes the importance of multiple entry points into 
language study. This is critical because expecting students to enter 
programs only at the beginning and to stay throughout limits access to 
high-quality language programs. We are working to help establish 
language learning models that are transferable from one school system 
to another throughout the entire educational process.
    For this reason, we emphasize a strong assessment based effort that 
will allow programs to assess the level of a student so that they can 
be appropriately placed in programs. We do not, however, believe that a 
single national curriculum would be effective. In addition we believe 
there should be a ``selective'' but not necessarily universal approach 
to language education--schools should be encouraged and incentivized 
but not required to offer languages as an integral component of the 
curriculum.
    Dr. Snyder. Is there any additional information you would like to 
add for the record?
    Dr. Slater. No, there is nothing further I would like to add.
    Dr. Snyder. Are Flagships graduates made aware of, and encouraged 
to volunteer for, the National Language Service Corps?
    Dr. Givens. [HUF refers to the Hindi Urdu Flagship at The 
University of Texas at Austin; AF refers to the Arabic Flagship at The 
University of Texas at Austin.]

    <bullet>  The HUF is only in the second year of operation and there 
are no graduates yet.

    <bullet>  The NLSC would certainly be an option that the HUF 
presents to graduates.

    <bullet>  The AF have 4 students doing their study year abroad year 
in Alexandria and were introduced to the NLSC during the orientation 
session they had in DC before departing for Egypt.

    <bullet>  The AF plan to incorporate information about the NLSC on 
their web site and will inform current Arabic Flagship students of this 
opportunity.

    Dr. Snyder. The Department and others liken the shock of 9/11 to 
the shock over the launching of Sputnik and suggest that the nation 
needs to react with similar commitment of resources and determination. 
Are the current efforts towards improving language instruction and 
cultural understanding on a similar scale? What kind of leadership at 
the national level would you like to see on this?
    Dr. Givens.

    <bullet>  There is a need to establish a position at the highest 
level of government which will coordinate a federal campaign to improve 
language and international education.

    <bullet>  This office will serve and represent all levels of 
education (from K-12 and higher education) and the Departments of 
Commerce, Defense and Education, Intelligence and Labor.

    <bullet>  This office will also be responsible for creating 
national guidelines for assessments and curriculum implementation of 
language education and making sure that each state complies with the 
given guidelines.

    <bullet>  Each state should be represented at this office as well 
to ensure that priority is given to language and international 
education based on the state's requirements and needs.

    <bullet>  There must be a federal initiative to fund and sustain 
these guidelines once they are created.

    Dr. Snyder. Have you taken or evaluated DLPT5 or DLI's 
instructional methodology or curriculum?
    Dr. Givens.

    <bullet>  The DLPT's are not readily available outside the DLI but 
the HUF have discussed these examinations with DLI officials and 
teachers.

    <bullet>  There was workshop in Austin in November 2007, where the 
HUF discussed and compared instructional methodology and curriculum 
with DLI and another workshop is being planned in Monterrey for the 
current academic year.

    Dr. Snyder. It was not entirely clear in the hearing how languages 
are designated as ``critical.'' How does this process work?
    Dr. Givens.

    <bullet>  The term ``critical language'' is usually defined by 
government institutions (Department of Defense) and is based on 
national needs and perhaps also the lack of availability of instruction 
in the language.

    <bullet>  The term has acquired dimensions related to political and 
military conflict.

    Dr. Snyder. Is the American Council of Teaching Foreign Language's 
test a ``gold standard'' for assessment? What important skills doesn't 
it evaluate?
    Dr. Givens.

    <bullet>  There are no good reading and listening tests for Hindi 
and Urdu provided by ACTFL.

    <bullet>  The HUF is obliged to devise their own assessment 
systems, building on the models of those available for other languages.

    <bullet>  For the AF, the ACTFL Oral Proficiency Interview (OPI) is 
the ``gold standard'' for assessing the speaking skill.

    <bullet>  Beyond the OPI, however, the AF does not have adequate 
instruments to assess the other skills.

    <bullet>  This will change soon as the Language Flagship is working 
with the National Middle East Language Resource Center (NMELRC) and 
ACTFL to develop a comprehensive proficiency test for reading and 
listening in Arabic which should be ready within a year.

    Dr. Snyder. What is your Roadmap's vision for teaching foreign 
language in other subject areas? Is there utility on combining content 
like language and science?
    Dr. Givens.

    <bullet>  We firmly believe in the need to introduce learners to 
content courses in the various disciplines in which the medium of 
communication is the foreign language. For example: Spanish for the 
field of Social Work.

    <bullet>  The Texas Roadmap advocates the dual immersion methods 
which have so far proven to be successful in teaching languages.

    Dr. Snyder. How do the Roadmaps account for the transient nature 
much of the U.S. population--that students move from state to state? 
Should there be some national requirement or curriculum for foreign 
language?
    Dr. Givens.

    <bullet>  There are certainly advantages to national requirements 
and curricula for foreign language, but it is probably not practical in 
the U.S. because of the decentralized nature of our educational system.

    <bullet>  Given that educational requirements are determined by the 
various states, we may think of some national guidelines that would 
provide a general framework for curriculum development and assessment.

    <bullet>  An example of such framework is the National Standards 
for Foreign Language developed by ACTFL.

    <bullet>  The Standards provide curricular guidelines that can be 
implemented by schools nationwide.

    Dr. Snyder. Is there any additional information that you would like 
to add to the record?
    Dr. Givens.

    <bullet>  The HUF have been collaborating with the few existing 
programs, including the Hindi program at the Bellaire foreign language 
magnet program in the Houston Independent School District and the Hindi 
Program of the International Business Initiative of the Hurst-Euless-
Bedford ISD in Tarrant County, Texas.

    <bullet>  The HUF is also looking at ways of addressing the dearth 
of K-12 teaching in these languages, and in particular are developing 
teacher-training processes to deal with the demand which is likely to 
emerge when the momentum of the Language Flagship initiative begins to 
make itself felt more fully throughout the educational system.

    <bullet>  The AF have just begun their K-12 outreach program and 
plan to work closely with schools in the Austin, Houston and Dallas 
areas to provide support for any school interested in offering Arabic.

    <bullet>  The AF will be working with the UTeach Program at The 
University of Texas at Austin to discuss certification for teachers 
planning careers in teaching Arabic as a Foreign Language.

    <bullet>  The Texas Language Roadmap would like additional funding 
to help expand the language roadmap effort as the initiative must come 
from the state level.

    <bullet>  This can continue our efforts to coordinate a high-level 
functioning board from all the various stakeholders from the business, 
education and government community that have a strong influence within 
their own communities.

    <bullet>  Limited English Proficiency (LEP) students have increased 
by 42.2% between 1996-97 and the 2006-2007 academic school years while 
the number of students in Bilingual or ESL programs grew by 51.6%, 
according to the Texas Education Agency (TEA). The NCLB mandate have 
motivated schools to be more aggressive in providing services to LEP 
students and thus the cost of education in the State of Texas have rose 
and is expected to rise dramatically. Texas provides monetary support 
for these students and is given priority over foreign languages.

    Dr. Snyder. What is your opinion of the current state of machine 
translators? In what situations are they most useful?
    Dr. Bourgerie. The use of electronic corpora has improved the 
accuracy of machine translation over the last few years. Research on 
the evaluation of machine translation conducted by MIT Lincoln Labs 
indicates that machine translation performs best when used for key-word 
spotting or translation of concrete factual communications. It does not 
work well when the context for the communication is not known, when the 
message is too short to establish a context, when the author of the 
communication is talking around the subject, when dealing with abstract 
subjects, or when it is necessary to identify inferences, sarcasm, or 
emotion within the communication. Given these limitations, academia, 
commerce, and government all use machine translation as part of the 
``triage'' process of identifying which communications should have 
highest priority for human translation--but not for definitive 
translations of those communications.
    Dr. Snyder. Are Flagship graduates made aware of and encouraged to 
volunteer for, the National Language Service Corps?
    Dr. Bourgerie. At this point our Flagship graduates arc not 
generally aware of the National Language Service Corps program. As we 
get more information on the program in the coming year, we will feature 
it on our website and in promotional materials. I believe Flagship 
students will be ideal candidates for the program. I also think that 
many of our advanced students at BYU will be excellent candidates. We 
very much look forward to promoting this program.
    Dr. Snyder. The Department and others liken the shock of 9/11 to 
the shock over the launching of Sputnik and suggest that the nations 
need to react with a similar commitment of resources and determination. 
Are the current efforts toward improving language instruction and 
cultural understanding on a similar scale? What kind of leadership at 
the national level would you like to see on this?
    Dr. Bourgerie. I believe that 9/11 did reveal to the general public 
and to the government the extent to which we were unprepared to 
interact in other languages and cultures. Though we are fortunate to 
have in this country a significant number of heritage speakers, we have 
learned that relying on heritage speakers alone is nowhere near 
sufficient to meet national capacity needs, whether in government, 
industry, or business. Many of the recent federal and state efforts 
have begun to address the need, but much more needs to be done at the 
basic level--particularly in the K-12 arena. It will take time no 
matter what we do but there are things that we can do now. Though I do 
not think a mandatory national language curriculum is warranted, I 
believe that national leadership needs to help set standards and 
provide guidance for state and local leaders. What we have seen in Utah 
is an strong desire to partner with Universities, national 
organizations, and federal efforts like the Flagship program. They know 
their context well, but are looking to the kind of guidance that high 
education can give with respect to best practices, materials, and 
methods.
    Dr. Snyder. Have you taken or evaluated DLPT5 or DLI's 
instructional methodology or curriculum? Is there any additional 
information you would like to add for the record?
    Dr. Bourgerie. I have visited DLI on several occasions. Recently, I 
also attended a meeting in Austin, Texas intended to increase greater 
cooperation between Flagship programs and the DoD, including DLI and 
military academies. DLI's resources are incomparable and its role in 
the language teaching world is unique. The number of students taught 
there is also well beyond any other institutions in the US and as such 
it is potentially a superb laboratory for language teaching.
    I am somewhat familiar with the DLPT5 but have neither taken it nor 
evaluated it formally. The current tests are apparently well designed, 
but they are still wrestling with the challenge of setting accurate 
``cut scores'' when assigning proficiency levels. This is especially 
true for tests of the ``receptive'' skills of reading and listening.
    We have had a number of graduates take the DLPT5 in Chinese and 
have had doubts about its validity. That is, the assignment to levels 
has not correlated well with other proficiency assessments and other 
achievement evidence--trending high in some cases and low in other 
times. Moreover, access to the test outside of DLI and the military is 
severely limited, and we have not had enough experience at our center 
to be definitive about the DLPT5's appropriateness.
    In observing DLI use of the DLPT5, what is clear is that the test 
takes far too prominent a role in the pedagogy of the Institute. A 
fundamental assumption of any proficiency test is that it should be 
independent of curriculum, so that one can see how graduates or 
participants of a given program compare objectively to others. The 
emphasis of a proficiency exam should be on what the person can do 
rather than how well a student has mastered a particular lesson. 
However, the DLPT5 seems to pervade every aspect of the Institute. This 
overemphasis on testing in a short-term program distorts the teaching 
and is at odds with the fundamentals of as proficiency measures. 
Incentives lead students and teachers to focus too heavily on the test 
as opposed to general achievement. DLI may want reconsider using other 
established measures along with the DLPT5, which could in turn assess a 
wider range of abilities based on needs analysis of potential job 
assignments.
    Dr. Snyder. It was not entirely clear in the hearing how languages 
are designated as ``critical.'' How does this process work?
    Dr. Bourgerie. The label ``critical language'' is currently at best 
ambiguous and at worst confusing. The label should be disambiguated by 
specifying ``for whom'' this is a ``critical'' need and ``why.'' Some 
languages may be in the ``critical'' need category for both national 
security and commercial reasons. Others may only be important for one 
or the other reason. Still others may only be important for 
anthropological research or for linguists documenting the evolution of 
human languages.
    Whether or not there is an official list of critical languages is 
also unclear. The Department of Defense apparently has a process within 
the Office of the Under Secretary of Defense for Preparedness, but the 
process is not a public one nor is the list published as far as I know. 
Indirectly, we take the languages emphasized by the National Security 
Education Program to be critical need languages (Arabic, Chinese, 
Hindi/Urdu, Korean, Persian, Russian, and West African). DoD has two 
related classifications: Immediate Investment Languages and Stronghold 
Languages. Immediate Investment Languages refers to languages toward 
which DoD has committed resources over the next ten years for in-house 
capability. Stronghold Languages are those in which DoD wants to 
maintain on-call capability.
    Exactly what constitutes a ``Critical Language'' or ``Critical-need 
Language'' is not clear to most people in the academic world either. 
The term itself is used loosely in language teaching circles, often 
interchangeable with the term Less-Commonly Taught Languages (LCTL). In 
the higher education world there are funded programs such as the 
University of Arizona's Critical Language Program (funded in part by a 
US Department of Education IRS grant), which focuses on Cantonese, 
Chinese, Kazakh, Korean, Brazilian Portuguese, Turkish, and Ukrainian. 
A list recently circulated by the State Department lists some 78 
languages, based on political importance and intent to preserve 
heritage languages or endangered languages.
    Dr. Snyder. Is the American Council of Teaching Foreign Language's 
test a gold standard for assessment? What important skills doesn't it 
evaluate?
    Dr. Bourgerie. The ACTFL Oral Proficiency Interview (OPI) is the 
most widely recognized test in US, especially in the higher education 
world. The ACTFL battery includes a writing test as well, but it is not 
nearly as widely used as the OPI. In addition, many other assessments 
are referenced to the ACTFL-OPI as well.
    One of the important benefits of the OPI is its wide use and 
availability. It can be done in person or by phone. However, because of 
its relatively high cost (per student $134 for OPI, and $65 for the 
writing tests of September 2008), it is not viable for broad based 
testing in most academic programs and therefore is somewhat under-
utilized. The BYU Flagship Center is currently doing research on 
correlations between the ACTFL-OPI, DLPT, and HSK (the China-wide 
national test for foreigners) to provide a better sense of how these 
various measures relate to one another.
    The ACTFL tests do not assess reading, or listening comprehension 
specifically. There are two ACTFL rated (but not ACTFL certified) 
computer-adaptive tests that address listing and reading in Chinese and 
that the have potential to help to fill the gap in skills assessment: 
The CCALT (Chinese Computerized Adaptive Listening Comprehension Test) 
and CATRC (Computer-Adaptive Test for Reading Chinese). The former is a 
University of Hawaii test (by Ted Yao) now being recalibrated by 
Brigham Young University; the latter test (by Ke Chuanren) is 
distributed by the Ohio State University.
    Dr. Snyder. What is your Roadmap's vision for teaching foreign 
language in other subject areas? Is there utility in combining content 
like language and science?
    Dr. Bourgerie. The development process around a Utah Language Road 
Map is markedly different than the previous three (Ohio, Oregon, and 
Texas) as was the Summit process that launched it. The summit was 
largely initiated by the Governor's office, though the BYU Flagship 
Center and NSEP were partners. The state had already proactively begun 
to form a policy on language training and to allocate recourses for 
languages (specifically though two state bills 80 and 41).
    The roadmap is now being drafted following the September 16th 
Governor's Language Summit. Following the Summit, Governor Huntsman 
initiated a standing language advisory council, which will meet for the 
first time on December 11th. This advisory council is also responsible 
for drafting the roadmap, which is scheduled to be delivered at the 
Utah International Education Summit on January 14th, 2009.
    The extent to which content-based instruction is feasible in 
foreign language curriculum is under discussion as well. The state has 
already made commitment to K-6 immersion programs in a number of 
languages, including Chinese (10), French (4), Spanish (9) and Navajo 
(1). These dual language immersion programs are inherently content 
based, in which certain subjects will be in target language and others 
in the base language.
    Dr. Snyder. How do the Roadmaps account for the transient nature of 
much of the U.S. population--that students move from state to state? 
Should there be some national requirement or curriculum?
    Dr. Bourgerie. The strategy on articulation with other state 
programs is part of the ongoing discussion in drafting the Utah Roadmap 
document. The discussion has centered on making sure that state schools 
are knowledgeable of national language standards, though not 
necessarily bound by them. Within the state Chinese language programs, 
for example, various types of programs are articulated to each other 
and students are tested to make sure they are meeting similar target 
proficiency standards. While we do not believe that a national 
curriculum, per se, is a desirable goal at this time, we feel strongly 
that there needs to be much better communication and greater 
interchange between language educators and administrators regionally 
and nationally. To the extent that best practices can be implemented 
according to local conditions, articulation will become easier.
    Dr. Snyder. Is there any additional information you would like to 
add for the record?
    Dr. Bourgerie. I believe there is a clear need for a multi-faceted, 
national language strategy that addresses needs in the short, medium, 
and long-term. Like any skill language learning requires a minimum 
amount of time on task. Better methods and conditions can shorten the 
time to mastery, but cannot short cut fundamental training. No amount 
of money can get a beginning pianist to play a challenging concerto in 
weeks or even months, but an excellent teacher and quality practice 
time will make the process move much more quickly than if those 
conditions are not present. Likewise, in language learning we need the 
best possible methods, teachers, and materials to devote to training. 
But we also need time.
    The existing skills of heritage speakers and other natural 
populations of language learners can be built upon now. We have shown 
in Flagship that we can train talented and motivated students to the 
highest levels of language proficency (DLPT 3+ and 4) in a university 
context through domestic and overseas training, even in non-cognate 
languages. However, we will never completely meet our needs if students 
generally do not begin serious language study until college. 
Significant efforts need to be taken to ensure larger numbers of 
American students have access to quality language training beginning in 
grade school. This challenge is formidable, but achievable and can be 
met through Federal, State, and local cooperation. I believe that the 
American people and the educational system are now ready to meet that 
challenge.
    Dr. Snyder. Are Flagship graduates made aware of, and encouraged to 
volunteer for, the National Language Service Corps?
    Dr. Walker. I have not received any reports from graduates that 
they have been informed of the National Language Service Corps. My 
program has not received any information about this organization. I 
assume that NSEP will enroll all those who successfully complete the 
Flagship programs.
    Dr. Snyder. The Department and others liken the shock of 9/11 to 
the shock over the launching of Sputnik and suggest that the nation 
needs to react with a similar commitment of resources and 
determination. Are the current efforts toward improving language 
instruction and cultural understanding on a similar scale? What kind of 
leadership at the national level would you like to see on this?
    Dr. Walker. The national goal should be to provide large numbers of 
Americans opportunities to learn to function in foreign languages and 
cultures. Given this goal, our efforts fall far short of accomplishing 
anything significant.
    Our country should establish a national language policy that would 
address the major issues confronting the effort to globalize American 
education by making foreign language proficiency a commonly achieved 
result. Such a policy should be developed by a well-budgeted office 
that is capable of prioritizing languages (i.e., rationalizing the 
critical languages list), setting performance standards for those 
languages, creating national teacher certification standards, and 
establishing commonly recognized assessment procedures. I think 
language educators across the country are ready to respond to clear, 
strategic leadership in this area.
    I would suggest that the person leading such an office be chosen 
for strategic and political reasons. He/she should not be from the 
fields of language education, although knowledge of those fields would 
be desirable.
    Dr. Snyder. Have you taken or evaluated DLPT5 or DLI's 
instructional methodology or curriculum?
    Dr. Walker. As a member of DLI's Board of Visitors, I have had a 
good look at the DLPT5 and engaged the developers of these tests in 
intense discussions. The DLPT5 tests are well made and verified by 
extensive research. There are some basic questions about the design of 
the tests. For example, I am still puzzled about the bilingual formats 
at all levels; however, the implementation of the chosen design is 
quite good.
    My concern is that the DLPT5 is essentially the organizing 
principle of DLI, with students, teachers, and administrators nearly 
obsessed with the students' performances on these tests. Instruction is 
continually referenced to these tests and students are essentially 
trained to take these tests. In a fundamental way, this situation 
negates the ``proficiency'' aspect of the tests, since proficiency has 
usually referred to testing independent of any curriculum.
    The next step for the DLPT5 is to correlate scores with job 
performance and other standardized tests. If the DLPT5 can be shown to 
be an indicator of job performance, then its role in the overall DLI 
instructional practice would be more rational. Without a demonstrable 
connection between the DLPT5 and the ultimate purpose of the training, 
the grip the DLPT5 has on the work of the institution should be 
loosened.
    Without the tyranny of the DLPT5, the DLI might use a broader array 
of assessments that could be related more closely to the desired job 
performances and the instruction could become more responsive to the 
requirements of end users.
    Dr. Snyder. It was not entirely clear in the hearing how languages 
are designated as ``critical.'' How does this process work?
    Dr. Walker. I have been perplexed by this question throughout my 
career. The latest Proposed Critical language List from the US/ED 
contains 78 critical languages that seem to reflect numbers of speakers 
and political importance. This list is circulated among language 
scholars for comment, so I suppose the ultimate result is a consensus 
among concerned language professionals.
    Dr. Snyder. Is the American Council of Teaching Foreign Language's 
test a ``gold standard'' for assessment? What important skills doesn't 
it evaluate?
    Dr. Walker. The ACTFL Oral Proficiency Interview (OPI) is the most 
widely recognized assessment in foreign language study. The ACTFL 
writing test is much less utilized.
    Our Chinese Flagship Program is focused on placing our students in 
Chinese workplaces and preparing them linguistically and culturally to 
thrive in those environments. This requires cultural knowledge and a 
command of the formalities of interactions in the work environment. The 
ACTFL OPI is not a good indicator of success in these situations. One 
reason is that the OPI for Chinese was largely based on the OPI for 
European languages. Another reason is that the interview format of the 
OPI is not something that commonly occurs in the cultural contexts of a 
Chinese workplace. For example, a foreign speaker of Chinese will be 
interviewed about an area of that person's special knowledge. There 
would rarely be an interview in which the intention is to find out how 
much Chinese the person really knows, but it would be relatively common 
to be interviewed about an academic discipline or an occupational area. 
Conversations, presentations, note taking . . . these are the skills 
that are more likely to determine success in a cooperative work 
environment and they are not revealed in the typical OPI.
    The internship, or work experience in a Chinese environment, is a 
key step toward advanced skills. Success in this environment is one of 
the strongest indicators that our students will test at the higher 
proficiency levels.
    We conclude the ACTFL OPI is not a good indicator of success in the 
Chinese workplace, but success in the Chinese workplace is a good 
indicator of success on the ACTFL OPI.
    Dr. Snyder. What is your Roadmap's vision for teaching foreign 
language in other subject areas? Is there utility in combining content 
like language and science?
    Dr. Walker. The Ohio Roadmap reflects the ideas of persons from the 
business and government sectors. One of their strongest recommendations 
was that language and culture knowledge be combined with technical and 
academic discipline knowledge. In other words, as you learn a language, 
learn to do something useful in that language.
    As we have worked on designing a K-12 Chinese language curriculum, 
we have come to the conclusion that after the basic language skills are 
developed (say, after 4-5 years of one-hour-per-day elementary school 
coursework), we should focus our language lessons on topics in 
mathematics and the natural sciences. There are basic reasons for this 
strategy: 1) The Chinese number system is more transparent than the 
English number system and can be learned relatively early while 
strengthening the students numeracy, 2) Nearly all Chinese scientific 
terminology is transparent, meaning that a term is a description of the 
phenomenon it represents. Thus, learning Chinese terminology solidifies 
the students' grasp of scientific concepts as they expand their 
vocabulary. 3) Early teens are less inclined to be accepting and 
concerned about different cultures and relative perceptions of the 
world. They are primarily focused on peers, even to the exclusion of 
parents and family. Scientific topics avoid the need to adapt to other 
cultural norms and present a relatively stable area of classroom 
activity. 4) If US students learn to deal with natural science 
subjects, they will be able to interact with Chinese students on 
projects. As we connect classrooms by videoconference across Pacific, 
the ability to meaningfully communicate with young people in China 
could become a significant motivator for continuing Chinese language 
study.
    For the above reasons, as Ohio increases the number STEM (Science, 
Technology, Engineering, Mathematics) schools, we are working with 
these schools to include Chinese language study as a mainstay of their 
curriculums.
    Dr. Snyder. How do the Roadmaps account for the transient nature of 
the U.S. population--that students move from state to state? Should 
there be some national requirement or curriculum?
    Dr. Walker. Some form of a national curriculum should be developed, 
presumably by a national office that sets national performance 
standards. With a commonly pursued curriculum, students can continue 
their progress in a language when they depart from a program in one 
school to that of another school. A national curriculum would also make 
teacher training more effective and encourage the continual enrichment 
of the common curriculum by materials developers.
    The Ohio Roadmap teams emphasized extended sequences of language 
instruction that have multiple points of access. This is necessary to 
avoid the constant attrition of language programs caused by the 
transiency of student populations. Our solution for the K-12 programs 
is to posit a three-phase curriculum design that functions analogous to 
other skill-based curricula such as music or martial arts. There are 
levels of performance that have to be progressed through to reach 
sequential higher levels of skills and knowledge. For example, if a 
student wants to become proficient in the violin, he/she must start at 
beginning orchestra and then progress to intermediate and on to 
advanced orchestra. This is the case no matter how old the student is 
or what grade she/he is enrolled in. While this presents scheduling 
challenges for schools, it does permit students to progress through 
language curricula at a variable pace that reflects their talents and 
efforts. It also emphasizes the goals of student performance for a 
language-learning career.
    In addition to a performance-based curriculum, the Ohio Roadmap 
recommends the employment of distance-education technology to provide 
access to language programs to students in areas of Ohio where the 
languages are not offered. If a student leaves a Chinese language 
program at one school, he/she should be able to enroll in a statewide 
program to continue in the language if the language is not available at 
the new school.
    Dr. Snyder. Is there any additional information you would like to 
add for the record?
    Dr. Walker. The DLI is a national treasure. As it refines the 
implementation of its mission statement, especially as it develops 
language instruction that emphasizes culturally appropriate contexts; 
it can have a major positive impact on language instruction across our 
Nation. It is the closest thing we have to a national language college 
and we need to make sure it rises to fulfill that role in both pedagogy 
and research.

                                  <all>

</pre></body></html>
